XI.

APPENDIX TO THE PETITION FOR
WRIT OF CERTIORARI
TABLE OF CONTENTS

Resolution - Declaring Racism a Public Health Crisis King County,
Washington State
Page la
Nelsen v. Legacy Partners Residential, Inc.,
207 Cal.App.4th 1115 144 Cal. Rptr.3d 198..

Page 6a

SyHadley, LLC., Respondent v. Addie Smith, Appellant
Court of Appeals
No. 80780-3-1 December 19, 2019......................................

Page 14a

SyHadley, LLC., Respondent v. Addie Smith, Appellant
Court of Appeals
No. 80780-3-1 January 31,2020.........................................

Page 18a

SyHadley, LLC., Respondent v. Addie Smith, Appellant
Court of Appeals
No. 80780-3-1 February 5, 2020.........................................

Page 24a

SyHadley, LLC., Respondent v. Addie Smith, Appellant
Court of Appeals Order Denying Motions to Modify and to Compel
Arbitration and Lifting Temporary Stays
Page 27a
No. 80780-3-1 February 20, 2020
SyHadley, LLC., Respondent v. Addie Smith, Appellant
Washington State Supreme Court Commissioner’s Order
Denying Discretionary Review
No. 98196-5 April 9, 2020......................................................

Page 29a

SyHadley, LLC., Respondent v. Addie Smith, Appellant
Washington State Supreme Court En Banc Order Denying Appellant’s
Motion to Modify Commissioner’s Ruling
Page 35a
No. 98196-5 July 8, 2020

27 | P a g e

Steven Burnett, Respondent v. Pagliacci Pizza, Inc., Petitioner
Washington State Supreme Court En Banc Order Denying Petitioner’s
Motion to Compel Arbitration
No. 97429-2 August 20,2020
Page 36a

28 | P a g e

DocuSign Envelope ID: 59F46137-7465-4D6F-87B9-F42DA6AC63BC

KING COUNTY

King County

1200 King County Courthouse
516 Third Avenue
Seattle, WA 98104

Signature Report

Resolution
Proposed No. 20-08.2
1
2

Sponsors

A RESOLUTION declaring racism a public health crisis.
WHEREAS, racism has deep and harmful impacts that unfairly disadvantages

3

Black, Indigenous and People of Color ("BIPOC") and unfairly advantages people who

4

identify as white, and

5
6
7
8

9

WHEREAS, racism harms every person in our society and is the root cause of
poverty and economic inequality, and
WHEREAS, "injustice anywhere is a threat to justice everywhere," as King
County's namesake, the Reverend Dr. Martin Luther King, Jr., said, and
WHEREAS, whether intended or not, racism becomes ingrained in institutional

10

policies and practices, creating differential access to opportunities and resources, and

11

causes disparate outcomes in all aspects of life affecting health, and

12

WHEREAS, by maintaining the status quo and existing systems of power and

13

privilege based on our country’s long history of and continued persistence of white

14

supremacy, institutional policies and practices do not need to be explicitly racist in order

15

to have racist impacts on residents, and

16

WHEREAS, culture across institutions and systems is critical, and the legacy of

17

racist policies and practices continues to exist even once the policies and practices have

18

been changed, and

19

WHEREAS, reversing the legacy of institutional racism calls for an
1

Docu'Sign Envelope ID: 59F46137-7465-4D6F-87B9-F42DA6AC63BC

Resolution

20

understanding of the intersectional nature of power and oppression that amplify adverse

21

effects on people who experience more than one form of marginalization, such as race,

22

gender and disability, and a commitment to anti-racist policies and practices, and

23

WHEREAS, decades of data collected by Public Health - Seattle & King County

24

have demonstrated how BIPOC communities are affected by both acute impacts, such as

25

gun violence, and chronic impacts such as higher rates of cardiovascular disease and

26

diabetes, maternal and infant mortality, underweight babies and shorter, less-healthy lives

27

overall, and
WHEREAS, King County residents of color have deep wells of resilience and

28

29

strength, and BIPOC communities are less likely to experience other health conditions,

30

such as suicide, Alzheimer’s disease and drug and alcohol-related conditions than their

31

white counterparts, and

32

WHEREAS, King County residents of color are more likely to experience

33

inequities in education, access to jobs, earning power, adequate and safe housing, higher

34

rates of policing and involvement in the criminal legal system, and overall quality of life,

35

and

36

WHEREAS, the disproportionate impact of the COVID-19 on our BIPOC

37

communities is a present-day demonstration of the systemic racism in institutions and

38

systems that have not valued and supported human life equitably, and

39

WHEREAS, we recognize that historically and currently King County has been

40

complicit in maintaining and perpetuating structural racism, and that as an institution the

41

Board of Health must stand in support of dismantling oppressive systems grounded in

42

white supremacy, and
2

Docu'Sign Envelope ID: 59F46137-7465-4D6F-87B9-F42DA6AC63BC

Resolution

43

WHEREAS, King County government and Public Health - Seattle & King County

44

have expressed a commitment to developing stronger and better resourced partnerships

45

with community organizations and leaders to disrupt and dismantle racism and protect the

46

health and well-being of our BIPOC residents, using quantitative data, including data

47

about racial inequities, along with voices and knowledge of community leaders and

48

residents to get to solutions that work and that are sustainable, and

49

WHEREAS, in 2008 the King County Executive joined with Public Health -

50

Seattle & King County to launch the Equity and Social Justice Initiative, and later in

51

2010 the King County Council passed equity and social justice ordinance, and now the

52

current Equity and Social Justice Strategic Plan leads with racial justice, and

53

WHEREAS, across the country local governments have taken action to declare

54

racism a public health crisis including the cities of Boston, Cleveland and Columbus,

55

Ohio, Franklin County, Ohio, the Indianapolis City-County Council in Indiana, and the

56
57

Tacoma-Pierce County Board of Health, and
WHEREAS, the Board of Health is committed to addressing racial equity and

58

health disparities in all forms and at all levels, which are the individual, institutional and

59

systemic levels, across the county;

60

61

NOW, THEREFORE, BE IT RESOLVED by the Board of Health of King
County:

62

A. The Board declares racism a public health crisis;

63

B. The Board supports King County and Public Health - Seattle & King County

64

immediately in the work to advance a public health approach in addressing institutional

65

and systemic racism;
3

Docu'Sign Envelope ID: 59F46137-7465-4D6F-87B9-F42DA6AC63BC

Resolution

66

C. The Board commits to assessing, revising, and writing its guiding documents

67

and its policies with a racial justice and equity lens including the Board of Health Code

68

and annual workplan; and

69

D. The Board members commit to ongoing work around race and equity such as

70

participating in racial equity training, engaging and being responsive to communities and

71

residents impacted by racism, especially Black and Indigenous communities, as partners

72

in identifying and implementing solutions, establishing an agreed upon understanding of

4

Doc'uSign Envelope ID: 59F46137-7465-4D6F-87B9-F42DA6AC63BC

Resolution

73

racial equity principles to work towards antiracist policies and practices and to serve as

74

ambassadors of racial equity work.

75

Resolution 20-08 was introduced on and passed as amended by the Board of Health on
6/18/2020, by the following vote:
Yes: 13 - Dr. Daniell, Dr. Delecki, Ms. Honda, Ms. Kohl-Welles, Ms.
Lambert, Mr. McDermott, Ms. Mosqueda, Mr. Lewis, Ms. Morales
and Ms. Zahn
Excused: 1 - Mr. Baker

BOARD OF HEALTH
KING COUNTY, WASHINGTON
DocuSigned by:

■6D0E6E444F08459...

Joe McDermott, Chair
ATTEST:

DocuSigned by:

8DE1BB375AD3422...

Melani Pedroza, Clerk of the Board
Attachments: None

5

10/28/2020

NELSEN v. LEGACY PARTNERS | 207 Cal.App.4th 1115... | 20120718006| Leagle.com

!

Home / Browse Decisions / Cal.App.4th / 207 Cal.App.4th / 207 Cal.App.4th 1115 (2012)

NELSEN v. LEGACY PARTNERS RESIDENTIAL, INC.
No. A132927.

View Case

Email I Print I Comments (0)

Cited Cases

Citing Case

207 cal.App.4th 1115 (2012)
144 Cal. Rptr. 3d 198
LORENA NELSEN, Plaintiff and Appellant, v. LEGACY PARTNERS RESIDENTIAL, INC., Defendant and Respondent.
Court of Appeals of California, First District, Division One.
'

July 18,2012.

Attorney(s) appearing for the Case

R. Rex Parris Law Firm, R. Rex Parris. Alexander R. Wheeler. Jason P. Fowler. Kitty Szeto. Douglas Han : Lawyers for Justice and Edwin Aiwazian for
Plaintiff and Appellant.
:

;

Rutan & Tucker. Mark T. Pavne and Brandon L. Sylvia for Defendant and Respondent.

OPINION
1

MARGULIES, J.
Lon-:!,! Nelsen filed a putative class action lawsuit against her former employer, Legacy Partners Residential, Inc. (LPI), alleging multiple violations of
the Labor Code. Based on an arbitration agreement she signed when LPI hired her, LPI moved to compel Nelsen to submit her individual claims to
arbitration. Nelsen purports to appeal from the ensuing order granting LPI’s motion. Although Nelsen fails to meet her burden to show the court's order
is appealable, we exercise our discretion to treat the appeal as a petition for writ of mandate. We find (1) the arbitration agreement is not unconscionable
and (2) notwithstanding that the agreement precludes class arbitration by its own terms, Nelsen fails to show that compelling her to individual
arbitration violates state or federal law or public policy. Accordingly, we deny Nelsen's petition and affirm the correctness of the trial court's order.
[207 CaLApp.yh 1120]

I. BACKGROUND
‘

Nelsen was employed by LPI as a property manager in California from approximately July 2006 until June 2009. At the inception of her employment,
Nelsen was provided with multiple employment forms to read and sign, including a 43-page "Team Member Handbook." The last two pages of the
handbook contained a section entitled, "TEAM MEMBER ACKNOWLEDGEMENT AND AGREEMENT" (Agreement), followed by signature lines for the
"TEAM MEMBER" and a "LEGACY PARTNERS REPRESENTATIVE." The signature line was preceded by a sentence in bold print, stating, "My signature
below attests to the fact that I have read, understand, and agree to be legally bound to all of the above terms." Nelsen and a representative of LPI both
signed the Agreement in July 2006.
mi. .

f.

___ 1. -

. f

____ __

.j f.

https://www.leagle.com/decision/incaco20120718006

.

1. _ J

- 3 O-

. _ »„

. . J___ J

1/9

NELSEN v. LEGACY PARTNERS | 207 Cal.App.4th 1115... | 20120718006| Leagle.com

10/28/2020
'O'

■O'

'O'

agreed to all terms and conditions of employment outlined in the handbook, (3) agreed LPI could modify any of the policies or benefits set forth in the
handbook at any time and for any reason, and (4) understood and agreed she was an "at will" employee. The fifth paragraph contained the following
relevant arbitration language: "I agree that any claim, dispute, or controversy ... which would otherwise require or resort [sic] to any court... between
myself and Legacy Partners (or its owners, partners, directors, officers, managers, team members, agents, related companies, and parties affiliated
with its team member benefit and health plans) arising from, related to, or having any relationship or connection whatsoever with my seeking
employment with, employment by, or other association with, the Legacy Partners, ... shall be submitted to and determined exclusively by binding
arbitration under the Federal Arbitration Act [(9 U.S.C. § 1 et seq.;)], in conformity with the procedures of the California Arbitration Act...." *,2
On July 26, 2010, Nelsen filed the present suit against LPI alleging causes of action arising under provisions of the Labor Code for failure to (1) pay
[207 Cal.App.4th 1121]

overtime, (2) provide meal periods, (3) provide rest breaks, (4) timely pay wages, (5) pay wages upon termination, (6) provide accurate itemized wage
statements, (7) maintain payroll records, or (8) reimburse for necessary business expenses. The complaint also included a cause of action for violation
of the unfair competition law (UCL), Business and Professions Code section 17200 et seq., based on the aforementioned statutory wage claims, and
seeking injunctive and other relief under that statute. The complaint was styled as a class action by Nelsen on behalf of all current and former
California-based property managers who worked for LPI at any time from four years preceding the filing of the complaint until final judgment in the
suit. In addition to consequential damages, restitution, and injunctive relief on behalf of the class, the complaint sought statutory penalties and
attorney fees.
LPI sent Nelsen a letter advising her of the arbitration agreement and requesting she stipulate to the dismissal of her action and submit her individual
claims to arbitration. After receiving no response from Nelsen, LPI moved two weeks later to compel Nelsen to arbitrate her claims. Nelsen opposed the
motion on the grounds the arbitration agreement was unconscionable and violated California public policy favoring class actions and wage and hour
lawsuits.
The trial court granted LPI's motion and entered an order requiring Nelsen to submit her individual claims to arbitration and staying the action in its
entirety. Nelsen timely appealed from the order, citing Franco v. Athens Disposal Co., Inc. (2009) 171 Cal.App.4th mi [go Cal.Rptr.3d 339] (Franco) in
her notice of appeal as the basis for her right to appeal.

II. DISCUSSION
Nelsen contends (1) the order compelling arbitration is appealable, (2) the arbitration clause is unconscionable and unenforceable, (3) enforcement of
the arbitration clause to preclude class arbitration would violate California and federal law and public policy in the employment field, and (4) her
injunctive relief claim under the UCL is not subject to arbitration.

A. Appealability

'

(1) Orders granting motions to compel arbitration are generally not immediately appealable. (Abramson v. Juniper Networks, Inc. (2004) its Cal.App.4th
638, 648-649 fo Cal.Rntr.2d A22I: Gordon v. G.R.O.U.P., Inc. (1996) 49 Cal.App.4th 998,1004, fn. 8 [56 Cal.Rptr.2d 914] ) Such orders
[207 CaLApp.4th 1122]

;

1

are normally subject to review only on appeal from the final judgment. (Code Civ. Proc., §§ 906,1294 2; see Muao v. Grosvenor Properties, Ltd. (2002)
99 Cal.App.Ath 1083.1088-1089 [122 Cal.Rptr.2d 131I.) Nelsen claims this case comes within an exception to the general rule recognized in Franco based
on the so-called "death knell" doctrine. Franco permitted an immediate appeal from an order made in a putative class action requiring arbitration of
individual claims and waiving class arbitration because such an order is effectively the "death knell" of the class litigation. (See Franco, supra, 171
Cal.App.4th at p. 1288.)
(2) As an initial matter, LPI points out Nelsen failed to cite Franco or any other authority supporting the appealability of the trial court's order anywhere
in her opening brief, in violation of California Rules of Court, rule 8.204(a)(2)(B). On that basis, LPI asks this court to (1) strike Nelsen's opening brief,
and (2) find Nelsen waived any argument for appealability based on Franco. (See Lester v. Lennane (2000) 84 Cal.App.4th 336, 557 riot Cal.Rptr.2d 86]
[holding Court of Appeal has discretion to strike opening brief that fails to include an adequate statement of appealability]; Baugh v. Garl (2006) 13.7.
Cal.App.4th 737. 746 f ao Cal.Rptr.3d 5391 [contentions not raised in appellant's opening brief deemed waived].) We decline to grant either remedy in
this case. Nelsen's citation to Franco in her notice of appeal put LPI on notice of her position regarding appealability and LPI took advantage of the
opportunity in its respondent's brief to address that case and cite authority arguably contrary to it. LPI cannot reasonably claim prejudice from our
consideration of Nelsen's argument based on Franco.
Franco involved a lawsuit filed by an employee against his employer seeking relief on behalf of himself and other employees for alleged state statutory
wage and hour violations. (Franco, supra, 171 Cal.App.4th at p. 1282.) Franco's employer filed a petition to compel arbitration based on an arbitration
agreement containing provisions waiving class arbitrations, and precluding Franco from bringing claims in arbitration on behalf of other employees.
(Id. at pp. 1283-1284.) The trial court granted the petition, directed Franco to submit his individual claims to arbitration, denied class arbitration, and
ordered the civil action to be dismissed for all purposes except enforcement of the arbitration order or to confirm, modify or vacate any arbitration
award. (Id. at pp. 1285,1287.) The employer contended Franco's ensuing appeal from the order was improper. Without further elaboration, the Court of
Appeal found the order was appealable: "The [trial court's] order found that the class arbitration waiver was enforceable and instructed Franco to
arbitrate his claims individually. That was the 'death knell’ of class litigation through arbitration." (Id. at p. 1288.)
1207 Cal.App.4th 1123]

(3) The "death knell" doctrine was explained as follows in General Motors Corp. v. Superior Court (1988) 199 Cal.App.3d 2A7 at page 251 [244 Cal.Rptr.
773)]: "Our Supreme Court... has held that where an order has the 'death knell1 effect of making further proceedings in the action impractical, the order
is appealable. In Daar v. Yellow Cab Co. [(1967)] 67 Cal.2d 691 f63 Cal.Rptr, 724. A33 P.2d 732], the court held that an order sustaining a demurrer to
class action allegations and transferring the action from superior court to municipal court was an appealable order. The court stated: '[H]ere the order
under examination not only sustains the demurrer, but also directs the transfer of the cause from the superior court, where it was commenced as a class
action, to the municipal court. We must assav the total substance of the order. It determines the leeal insufficiencv of the complaint as a class suit and
2/9
https://www.leagle.com/decision/incaco20120718006

10/28/2020

NELSEN v. LEGACY PARTNERS | 207 Cal.App.4th 1115... | 20120718006| Leagle.com

preserves for the plaintiff alone his cause of action for damages. In "its legal effect" the order is tantamount to a dismissal of the action as to all
members of the class other than plaintiff. It has virtually demolished the action as a class action. If the propriety of such disposition could not now be
reviewed, it can never be reviewed."1
Thus, "[t]he death knell doctrine [applies] when it is unlikely the case will proceed as an individual action." (Szetela v. Discover Bank (2002) 97.
Cal.App.4th log 4,1098 f 118 Cal.Rptr.2d 862I (Szetela), italics added [finding an order sharply limiting the scope of class arbitration was not a "death
knell" order].) Here, Nelsen fails to explain or demonstrate how the trial court's order makes it impossible or impracticable for her to proceed with the
action at all.3 However, despite Nelsen's default, we need not decide whether her appeal comes within the death knell doctrine. As the Court of Appeal
did in Szetela, we exercise our discretion to treat Nelsen's appeal as a petition for a writ of mandate. (Szetela, at p. 1098; Olson v. Cory (1983) 35_CaL3d
3.9H, 4ot fiQ7 Cal.Rptr. 843. 673 P,2d 720I.) This will ensure appellate review of the court's arbitration order in the event there is no future appellate
proceeding in which the order will be renewable.

'
;

1

B. Unconscionability
(4) Section 2 of the FAA provides in relevant part as follows: "A written provision in any ... contract evidencing a transaction involving commerce to
settle by arbitration a controversy thereafter arising out of such contract or transaction ... shall be valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation of any contract." (9U.S.C. § 2, italics added.) Section 2 is a "congressional declaration of a
[207 CaLApp.4th 1124]

!

:
\
:
i

!
!

liberal federal policy favoring arbitration agreements, notwithstanding any state substantive or procedural policies to the contrary. The effect of the
section is to create a body of federal substantive law of arbitrability, applicable to any arbitration agreement within the coverage of the Act." (Moses H.
Cone Hospital v. Mercury Constr. Corp. (1983) 460 U.S. 1. 24 [74 L.Ed.2d 765,103 S.Ct. 927].) The italicized portion of section 2 — known as its "savings
clause" — provides an exception to the enforceability of arbitration agreements for "'generally applicable contract defenses, such as fraud, duress, or
____[179 L.Ed.2d 742, m S.Ct. 1740.1746] (Concepcion).)
unconscionability."1 (AT&TMobilityLLC v. Concepcion (2011) 563 U.S.
(5) Invalidating an arbitration agreement for unconscionability under California law requires a two-part showing: "[T]he party opposing arbitrationhats] the burden of proving that the arbitration provision [is] unconscionable. [Citation.]... [II] Unconscionability requires a showing of both procedural
unconscionability and substantive unconscionability. [Citations.] Both components must be present, but not in the same degree; by the use of a sliding
scale, a greater showing of procedural or substantive unconscionability will require less of a showing of the other to invalidate the claim." (Ajamian v.
CantorC02e, L.P. (2012) 202 Cal.App.4th 771, 795 f 127 Cal.Rptr.2d 7721.) Where the relevant extrinsic evidence is undisputed, as it appears to be here, the
appellate court reviews the arbitration contract de novo to determine whether it is legally enforceable. (Mercuro v. Superior Court (2002) q6 Cal.App.4th
167,174 fii6 Cal.Rptr.2d 6711.)
Several factors support a finding LPI's arbitration agreement is procedurally unconscionable. It was part of a preprinted form agreement drafted by LPI
that all of LPI's California property managers were required to sign on a take-it-or-leave-it basis. The arbitration clause was located on the last two
pages of a 43-page handbook. While the top of page 42 contains a highlighted prominent title "TEAM MEMBER ACKNOWLEDGMENT AND
AGREEMENT," the title makes no reference to arbitration and the arbitration language itself appears in a small font not set off in any way to stand out
from the rest of the agreement or handbook. Moreover, unless Nelsen happened to be conversant with the rules of pleading in the Code of Civil
Procedure, the law and procedure applicable to appellate review, and the rules for the disqualification of superior court judges, the terms and rules of
the arbitration referenced in the clause would have been beyond her comprehension. (Cf. Trivedi v. Curexo Technology Corp. (2010) 189 Cal.App.4th 387,
393 fii6 Cal.Rptr.2d 804I [employment arbitration provision was procedurally unconscionable because it was prepared by the employer, mandatory,
and no copy of the applicable arbitration rules was provided].)

i
; (6) Substantive unconscionability depends on the terms of the arbitration clause itself. In this case, the issue of whether the clause in question is

[207 CaLApp.4th 1125]

!
,
■
j

substantively unconscionable has already been addressed by the California Supreme Court in Little v. Auto Stiegler, Inc. (2003) 29 Cal.4th 1064 [130
Cal.Rptr.2d 802. 63jL3d_9_7_9.] (Little). (See Marshall v. Pontiac (S.D.Cal. 2003) 287 F.Supp.2d 1220 [identical language, outcome controlled by Little].)
The employment arbitration agreement in issue in Little was, for all practical purposes, identical to Nelsen's. 4 There is just one substantive difference
between the two arbitration agreements: the agreement in issue in Little provided that only awards exceeding $50,000 required the arbitrator's
"'written reasoned opinion"1 or triggered the right to appeal to a second arbitrator. (29 Cal.4th at p. 1070.) The Supreme Court found this one provision
substantively unconscionable because, as a practical matter, the $50,000 appeal minimum operated in a lopsided way — it was much more likely to give
the employer a right to appeal an unfavorable award than the employee. (Id. at pp. 1071-1074.) However, the Supreme Court did not toss out the
arbitration provision as a whole on that basis. It ordered the $50,000 appeal threshold severed from the rest of the arbitration agreement, and found the
rest of the arbitration agreement valid and enforceable. (Id. at pp. 1074-1076,1085.) The provision severed by the court in Little does not appear in the
arbitration agreement before this court.

; Relying on Armendariz v. Foundation Health Psychcare Services, Inc. (2000) 24 Cal.4th 82 at page 113 Iqq Cal.Rptr.2d 745,6 P.3d 6691

1

j
i

[207 Cal.App.4th 1126)

(Armendariz), Nelsen claims the arbitration agreement is substantively unconscionable because it lacks bilaterality. Citing language identical to that
found in Nelsen's arbitration agreement, the Little court rejected the same bilaterality argument Nelsen makes here: "[UJnlike the agreement in
Armendariz, which explicitly limited the scope of the arbitration agreement to wrongful termination claims and therefore implicitly excluded the
employer's claims against the employee [citation], the arbitration agreement in the present case contained no such limitation, instead applying to "any
claim, dispute, or controversy... between [the employee] and the Company.'" (Little, supra, 29 Cal.4th at p. 1075, fn. 1.) Little is controlling on that issue,
(Auto Equity Sales, Inc. v. Superior Court (1962) 57 Cal.2d 450. 455 [20 Cal.Rptr. 221. 36.9jL2d.93.7j-) 5

: We therefore reject Nelsen's argument that her arbitration agreement with LPI is substantively unconscionable. Because she had the burden of
j

demonstrating both procedural and substantive unconscionability (Ajamian v. CantorC02e, L.P., supra, 203 Cal.App.4th at p. 795), we find the
arbitration agreement was not unenforceable due to unconscionability.

C. Violation of California Public Policy
https://www.leagle.com/dedsion/incaco20120718006

3/9

NELSEN v. LEGACY PARTNERS | 207 Cal.App.4th 1115... | 20120718006| Leagle.com

10/28/2020

1. Overview of Gentry
In her opposition to LPI's motion to compel arbitration in the trial court, Nelsen sought classwide arbitration of her claims in the alternative, if the
arbitration clause as a whole was not found to be unconscionable. Relying on Gentry v. Superior Court (2007) 42 Cal.Ath LL\ 164 Cal.Rptr.2d 772.165
JL3d_556] (Gentry), Nelsen contends requiring individual arbitration of her wage and hour claims would violate California public policy even if the
arbitration agreement is otherwise found to be valid and enforceable. As explained in Arguelles-Romero v. Superior Court (2010) 184 Cal.App.Ath 821
flog Cal.Rptr.id 280! (Arguelles-Romero), "Gentry is concerned with the effect of a class action waiver on unwaivable statutory rights regardless of
unconscionability." (Id. at p. 836.)
" Gentry involved a class of employees who alleged that their employer had improperly characterized them as exempt and therefore did not pay them
[207 CalApp.4th 1127]

overtime. [Citation.] The statutory right to recover overtime is unwaivable. [Citation.] The Supreme Court then concluded that, in wage and hour cases,
a class action waiver would frequently have an exculpatory effect and would undermine the enforcement of the statutory right to overtime pay.
[Citation.] The court identified several factors which, if present, could establish a situation in which a class action waiver would undermine the
enforcement of the unwaivable statutory right. These factors included: (1) individual awards 'tend to be modest1 [citation]; (2) an employee suing his or
her current employer is at risk of retaliation [citation]; (3) some employees may not bring individual claims because they are unaware that their legal
rights have been violated [citation]; and (4) even if some individual claims are sizeable enough to provide an incentive for individual action, it may be
cost effective for an employer to pay those judgments and continue to not pay overtime — only a class action can compel the employer to properly
comply with the overtime law [citation]." (Arguelles-Romero, supra, 184 Cal.App.4th at p. 840.)
(7) Thus, Gentry holds that when a class action is requested in a wage and hour case notwithstanding an arbitration agreement expressly precluding
class or representative actions, the court must decide whether individual arbitration is so impractical as a means of vindicating employee rights that
requiring it would undermine California's public policy promoting enforcement of its overtime laws. (Arguelles-Romero, supra, 184 Cal.App.4th at pp.
840-841.) If the court makes that determination, Gentry requires that it invalidate the class arbitration waiver and require class arbitration. (ArguellesRomero, at pp. 840-841.) Gentry further held that refusing to enforce class arbitration waivers on such public policy grounds would not violate the FAA.
(Gentry, supra, 42 Cal.4th at p. 465.)

.

As noted, Gentry applies when the arbitration agreement expressly waives class arbitration. Here, the agreement includes no express waiver of
classwide arbitration, and the parties come to opposite conclusions about what inferences are to be drawn from that fact. LPI takes the position that
silence cannot be construed as a waiver of class arbitration and, therefore, Gentry has no application. Nelsen on the other hand invites us to construe the
arbitration agreement's silence as a de facto waiver of class arbitration. She correctly points out that LPI wants to have it both ways — class arbitration
is precluded because the agreement does not expressly authorize it, yet Gentry is inapplicable because the agreement does not expressly waive such
arbitration. In our view, Gentry's application should not turn on whether an arbitration agreement bars class arbitration expressly or only impliedly. In
either case, enforcement of the arbitration agreement according to its terms in a wage and hour case raises the identical policy issues. On the other
hand, if the agreement allows class arbitration, Nelsen is entitled to such arbitration

1

[207 CaLApp.4th 1128]

without regard to Gentry. We must therefore determine as a threshold matter whether the arbitration agreement in this case impliedly either precludes
or allows class arbitration.

2. Does the Agreement Permit Class Arbitration?
\
i
’

i

i

.

[176
(8) The starting point for our analysis is the U.S. Supreme Court's holding in Stolt-Nielsen S. A. v. AnimalFeeds Int’l Corp. (2010) 559 U.S.
L.Ed.2d 605,12,0 S.Ct. i7r,81 (Stolt-Nielsen). Stolt-Nielsen held "a party may not be compelled under the FAA to submit to class arbitration unless there
[130 S.Ct. at p. 1775], first italics added.) The court did not
is a contractual basis for concluding that the party agreed to do so." (559 U.S. at p.
specify what is affirmatively required in order to show there is a "contractual basis" for finding an agreement to class arbitration. At the same time, it
did not hold that the intent to agree to class arbitrations must be expressly stated in the arbitration agreement. The court stated: "We have no occasion
to decide what contractual basis may support a finding that the parties agreed to authorize class-action arbitration. Here ... the parties stipulated that
, fn. 10 [130 S.Ct. at p. 1776, fn. 10].) Stolt-Nielsen did hold that the
there was 'no agreement1 on the issue of class-action arbitration." (Id. at p.
agreement's "silence on the question of class arbitration" cannot be taken as dispositive evidence of an intent to a//ow class arbitration. (Id. at p.___
[130 S.Ct. at p. 1775].) Thus, "[a]n implicit agreement to authorize class-action arbitration ... is not a term that the arbitrator may infer solely from the
fact of the parties' agreement to arbitrate." (Ibid., italics added.) Stolt-Nielsen recognizes that "the interpretation of an arbitration agreement is
generally a matter of state law...." (Id. at p.____[130 S.Ct. at p. 1773] citing Arthur Andersen LLP v. Carlisle (2009) 556 U.S. 624, 630-631 [173 L.Ed.2d
832,120 S.Ct. 1896.1901-1902].) The question of whether there is a contractual basis for concluding the parties intended to allow class arbitration must
therefore be based on state law principles of contract interpretation to the extent they are consistent with the parameters of the FAA as described in
Stolt-Nielsen. (See Jock v. SterlingJewelers (2d Cir. 2011) 646 F.3d 113.126.) Thus, whatever other state law principles apply, consent to class arbitration
cannot be inferred solely from the agreement to arbitrate, and the decision cannot be based on the court's view of sound policy regarding class
[130 S.Ct. at pp. 1767-1768].)
arbitration but must be discernible in the contract itself. (Stolt-Nielsen, at pp.
We recognize some federal courts have decided issues of class arbitration are generally for the arbitrator to decide, at least when the arbitration
agreement does not provide otherwise. (See, e.g., Guida v. Home Savings ofAmerica, Inc. (E.D.N.Y. 2011) 793 F,Supp.2d 611, 617-618, and cases
[207 CaLApp.4th 1129]

collected therein.)6 Here, however, neither party has proposed we leave the question of class arbitration for the arbitrator. Both parties invite this court
to decide the issue. LPI asks that we find the arbitration agreement does not reflect its consent to class arbitration, while Nelsen requests we either find
the arbitration agreement unenforceable or interpret it to allow class arbitration. In any event, for the reasons we will discuss, we believe it is clear the
agreement precludes class arbitration and do not think any reasonable arbitrator applying California law could find otherwise.
(9) "The fundamental rule is that interpretation of... any contract... is governed by the mutual intent of the parties at the time they form the contract.
[Citation.] The parties' intent is found, if possible, solely in the contract's written provisions. [Citation.] 'The "clear and explicit" meaning of these
nrmncmnc

intomrotoH in thoir nnr/1inan7 and nnnnlar

https://www.leagle.com/decision/incaco20120718006

cpticp m

imlpcc "ncoH hv tho narHpc in a torhninal

cpjicp

nr a cnorial moanino ic crwon tn thorn hw

4/9

10/28/2020

NELSEN v. LEGACY PARTNERS | 207 Cal.App.4th 1115... | 20120718006| Leagle.com

usage" [citation], controls judicial interpretation.' [Citation.] If a layperson would give the contract language an unambiguous meaning, we apply that
meaning." (LockheedMartin Corp. v. Continental Ins. Co. (2005) 13A Cal.App.4th 187.196 [35_CaLRptr.3d_7.9_9.], disapproved on another point in State of
California v. Allstate Ins. Co. (2009) AS Cal.Ath 1008.1036, fn. 11 fQQ Cal.Rptr.3d 1.201 P,3d 11A71.)
As an initial matter, the record does not disclose any admissible extrinsic evidence reflecting on the parties' intent with respect to class arbitration.
Neither party has suggested there was any preagreement communication about whether the arbitration agreement covered class arbitration or any
prelitigation conduct contradicting the positions the parties are taking on that subject now. We accordingly confine ourselves to construing the parties'
intent based solely on the language of their arbitration agreement.
While the arbitration agreement in issue broadly encompasses any employment-related "claim, dispute, or controversy ... which would otherwise
require or [allow] resort to any court," it contains one very significant limitation. The agreement only covers claims, disputes, and controversies
[207 CaLApp.4th 1130]

,
‘
■
;
i

i
■

;
i

"between myself and Legacy Partners," that is, between Nelsen and LPI. A class action by its very nature is not a dispute or controversy "between
[Nelsen] and Legacy Partners." In this case (assuming a class was certified) it would be a dispute between LPI and numerous different individuals, one
of whom is Nelsen. Although LPI agreed with Nelsen to arbitrate all kinds of disputes that might arise between them, this choice of contractual
language, by its ordinary meaning, unambiguously negates any intention by LPI to arbitrate claims or disputes to which Nelsen was not a party.7
The Court of Appeal in Kinecta Alternative Financial Solutions, Inc. v. Superior Court (2012) 205 Cal.App.Ath 506 Liao Cal.Rptr.3d 3/.71 (Kinecta) was
faced with a nearly identical question in a putative wage and hour class action brought by a credit union employee against her former employer. The
employee arbitration agreement in that case covered "'any claim, dispute, and/or controversy that either / may have against the Credit Union (or its
owners, directors, officers, managers, employees, agents, and parties affiliated with its employee benefit and health plans) or the Credit Union may
have against me, arising from, related to, or having any relationship or connection whatsoever with my seeking employment with, employment by, or
other association with the Credit Union....'" (Kinecta, at p. 511, fn. 1, italics added.) The trial court had ordered the parties to class arbitration. (Id. at p.
509.) The Court of Appeal granted the employer's petition for writ of mandate overturning the trial court's order, holding the language of the
arbitration agreement was inconsistent with an intent to allow class arbitration: "The arbitration provision identifies only two parties to the agreement,
"I, Kim Malone' and "Kinecta Federal Credit Union and its wholly owned subsidiaries' (referred to ... as 'the Credit Union1). It makes no reference to
employee groups or to other employees of Kinecta, and instead refers exclusively to 'I,1 'me,1 and 'my1 (designating Malone)." (Id. at p. 517.) Applying
Stolt-Nielsen, the court found there was no contractual basis for finding the agreement authorized class arbitration. (Kinecta, at p. 517.)
(10) As in Kinecta, the arbitration contemplated by Nelsen's arbitration agreement in this case involves only disputes between two parties — Nelsen
("myself") and LPI. It does not encompass disputes between other employees or groups of employees and LPI. Other portions of the agreement
reinforce the two-party intent of the agreement. The agreement provides for an appeal of the arbitrator's award "at either party's written request."
(Italics added.) In bold letters, the agreement states, "I understand by agreeing to this binding

1

[207 CaLApp.4th 1131]

;

arbitration provision, both Legacy Partners and I give up our rights to trial by jury." (Italics added.) All of the relevant contractual language thus
contemplates a two-party arbitration. No language evinces an intent to allow class arbitration. 8

!

We therefore conclude the agreement does not permit class arbitrations. We turn now to the question of whether the agreement is enforceable in that
respect, notwithstanding Gentry.

I

3. Enforceability under Gentry

1

1
I

■

I

■
j

As the parties recognize, the continuing vitality of Gentry has been called into serious question by a recent decision of the United States Supreme Court
holding that a state law rule requiring classwide arbitrations based on public policy grounds rather than the parties' arbitration agreement itself does
violate the FAA. (See Concepcion, supra, 563 U.S. at pp.___ -____[131 S.Ct. at pp. 1748-1753).) Concepcion expressly overruled Discover Bank v.
Superior Court (2005) 36 Cal.Ath 1A8 lAo Cal.Rntr.3d 76.113 P.3d 1100I (Discover Bank), which had adopted a rule permitting the plaintiffs in certain
consumer class action cases to demand classwide arbitration notwithstanding express class arbitration waivers in their arbitration agreements.
[131 S.Ct. at pp. 1750-1751,1753].) Concepcion held the so-called Discover Bank rule was preempted by the FAA
(Concepcion, at pp.
because "(r]equiring the availability of classwide arbitration interferes with fundamental attributes of arbitration and thus creates a scheme
[131 S.Ct. at pp. 1748,1753].) Under the FAA, classwide arbitration cannot be imposed on a
inconsistent with the FAA." (Concepcion, at pp.
party who never agreed to it, as the Discover Bank rule requires. (Concepcion, at pp.
[131 S.Ct. at pp. 1750-1751].)
One California appellate court and a number of federal district courts have found Concepcion applies equally to Gentry and the FAA therefore precludes
California courts from ordering classwide arbitration of wage and hour claims unless the parties have agreed to it. (See Iskanian v. CLS Transportation
Los Angeles, LLC (2012) 206 Cal.App.Ath qaq, 959-961 fiA2 Cal.Rptr.3d 372I (Iskanian); Jasso v. Money Mart Express, Inc. (N.D.Cal. 2012)____
F.Supp.2d____-____[2012 WL1309171, pp. *4-*7] (Jasso); Sanders v. Swift Transportation Co. ofArizona, LLC (N.D.Cal. 2012)
F.Supp.2d

i

'
<

i
j
j
1

(207 CaLAppAth 1132]

[2012 WL 523527, p. *3]; Lewis v. UBS Financial Services Inc. (N.D.Cal. 2011) 818 F.Supp.2d 1161 (Lewis); Murphy v. DIRECTV, Inc. (C.D.Cal., Aug. 2, 2011,
No. 2:07-cv-o6465-JHN-VBKx) 2011 WL 3319574, p. *4.) The reasoning of a Ninth Circuit decision in Coneffv. AT&TCorp. (9th Cir. 2012) 673 F.3d 1155
— finding a Washington State rule deeming class arbitration waivers unconscionable was preempted by the FAA in light of Concepcion — would also
seem to apply equally to Gentry, as the federal district court held in Jasso. (Jasso,____F.Supp.2d at p.____ [2012 WL 523527 at p. *7].)9
(11) But we need not decide here whether Concepcion abrogates the rule in Gentry. By its own terms, Gentry creates no categorical rule applicable to the
enforcement of class arbitration waivers in all wage and hour cases. (Gentry, supra, 42 Cal.4th at p. 462.) As discussed earlier, before such waivers can
be held unenforceable, Gentry requires a predicate showing that (1) potential individual recoveries are small; (2) there is a risk of employer retaliation;
(3) absent class members are unaware of their rights; and (4) as a practical matter, only a class action can effectively compel employer overtime law
compliance. (Id. at p. 463.) The trial court was in no position in this case to make a determination that any of the Gentry factors applied. Nelsen
supported her opposition to LPI's motion to compel with a one and a half page declaration solely addressing facts relevant to procedural
unconscionability. She submitted no evidence as to any of the factors discussed in Gentry. The record is thus wholly insufficient to apply Gentry even
/trt—i,

https://www.leagle.com/dedsion/incaco20120718006

A __

-2. _

\

ti---------------------------- ,i:

_A

___2.—L

5/9

10/28/2020

NELSEN v. LEGACY PARTNERS | 207 Cal.App.4th 1115... | 20120718006| Leagle.com

opposition to the motion to compel in the trial court, it was Nelsen's burden to come forward there with factual evidence supporting her position
classwide arbitration was required. (Kinecta, at p. 510.) She is not entitled to a remand for the purpose of affording her a second opportunity to produce
such evidence, as she now requests.

D. Violation of Federal Law
Finally, Nelsen cites a recent administrative decision of the National Labor Relations Board (the Board), D. R. Horton, Inc. (Jan. 3, 2012) 357 NLRB
[207 Cal_App.4th U33]

No. 184 {Horton).10 In Horton, the Board determined it was a violation of the National Labor Relations Act (NLRA) (29 U.S.C. § 151 et seq.) to require
employees as a condition of employment to waive the filing of class action or other joint or collective claims regarding wages, hours, or working
conditions in any forum, arbitral or judicial.11 {Horton, at p. 1.) According to the Board, such a requirement violates the substantive rights vested in
employees by section 7 of the NLRA to "engage in... concerted activities for the purpose of collective bargaining or other mutual aid or protection." (29
U.S.C. § 157.) Such mutual aid or protection, the Board asserted, had long been held — with judicial approval — to encompass "employees' ability to join
together to pursue workplace grievances, including through litigation." {Horton, at p. 2.)
The Board further found in Horton that its interpretation of the NLRA to bar mandatory waivers of class arbitration over wages, hours, and working
conditions did not conflict with the FAA or with the Supreme Court's decisions in Concepcion and Stolt-Nielsen. Concepcion involved a conflict between
the FAA and state Jawwhich, under the supremacy clause, had to be resolved in favor of the FAA. {Horton, supra, 357 NLRB No. 184, at p. 12.) By contrast,
the NLRA reflected federal substantive law, removing supremacy clause considerations from the equation. The Board reasoned that the strong federal
policy embodied in the NLRA to protect the right of employees to engage in collective action trumped the FAA. {Horton, at pp. 8-12.) Further, the Board
opined it was not in fact mandating class arbitration, contrary to Concepcion and Stolt-Nielsen, but holding employers may not, consistent with the
NLRA, require individual arbitration without leaving a judicial forum open for class and collective claims. (Horton, at pp. 8-12.)
(12) For a number of reasons, we decline to follow Horton here. Since we are not bound by the decisions of lower federal courts on questions of federal
law, it follows we are also not bound by federal administrative interpretations. (See Etcheverry v. Tri-AgService, Inc. (2000) 22 Cal.4th 216. 320-321 [93
Cal.Rptr.2d 36. qq? P.2d 3661, overruled in part by Bates v. Dow Agrosciences LLC (2005) 544 U.S. All [161 L.Ed.2d 687, 125 S.Ct. 1788]; Debtor
Reorganizers, Inc. v. State Bd. of Equalization (1976) 58 Cal.App.id 691. 696 (lio Cal.Rptr. 641.) Although we may nonetheless consider the Horton
decision for whatever persuasive value it has, several factors counsel caution in doing so. Only two Board members subscribed to it, and the subscribing
members therefore lacked the benefit of dialogue with a full board or dissenting colleagues. The subject matter of the decision — the
[207 Cal.App.4th U34]

interplay of class action litigation, the FAA, and section 7 of the NLRA — falls well outside the Board's core expertise in collective bargaining and unfair
labor practices. The Board's decision reflects a novel interpretation of section 7 and the FAA. It cites no prior legislative expression, or judicial or
administrative precedent suggesting class action litigation constitutes a "concerted activity] for the purpose of... other mutual aid or protection" (29
U.S.C. § 157), or that the policy of the FAA favoring arbitration must yield to the NLRA in the manner it proposes. In fact, before Horton was decided, two
federal district courts had specifically rejected arguments that class action waivers in the labor context violated section 7 of the NLRA. (Grabowski v.
C.H. Robinson (S.D.Cal. 2011) 817 F.Supp.2d 1159. 1168-1169 [class action waiver]; Slawienski v. Nephron Pharmaceutical Corp. (N.D.Ga., Dec. 9, 2010, No.
i:io-CV-046o-JEC) 2010 WL 5186622, p. *2 [class arbitration waiver].)
'

F.Supp.2d at pp.
[2012 WL 1309171 at pp.
At least two federal district court cases rejected Horton after it was decided. (See Jasso, supra,
*7-*i0] ["Because Congress did not expressly provide [in the NLRA] that it was overriding any provision in the FAA, the Court cannot read such a
provision into the NLRA and is constrained by Concepcion to enforce the instant agreement according to its terms."]; LaVoice v. UBS Financial Services,
Inc. (S.D.N.Y., Jan. 13, 2012, No. 11 Civ. 2308(BSJ) (JLC)) 2012 WL 124590, p. *6 [Concepcion precludes any argument, such as that made in Horton, that
an absolute right to collective action can be reconciled with the FAA's ""overarching purpose' of "ensuring the enforcement of arbitration agreements
according to their terms so as to facilitate streamlined proceedings'"].) Another district court found Horton inapposite where, as in this case, the
plaintiff's putative class action complaint and opposition to arbitration made no allegation his claims alleging violations of California wage and hour
F.Supp.2d at p.
, fn. 1 [2012 WL 523527 at p. *4, fn. 1].)
laws were covered by the NLRA. {Sanders v. Swift Transp. Co. ofArizona, LLC, supra,
[181 L.Ed.2d 586,132 S.Ct. 6651
(13) As illustrated in the United States Supreme Court's decision in CompuCredit Corp. v. Greenwood(2012) 565 U.S.
{CompuCredit), a federal statute will not be found to override an arbitration agreement under the FAA unless such a congressional intent can be shown
F.Supp.2d at p.
-____[132 S.Ct. at pp. 672-673]; see Jasso, supra,
with clarity in the statute's language or legislative history. (565 U.S. at pp.
____[2012 WL 1309171 at p. *8].) As the district court found in Jasso, "there is no language in the NLRA (or in the related Norris-LaGuardia Act)
demonstrating that Congress intended the employee concerted action rights therein to override the mandate of the FAA." (Jasso, at p.____[2012 WL
1309171 at p. *8].)
[207 CaLApp.4th 1135]

i
1

The Second District Court of Appeal in Iskanian has rejected Horton based on the CompuCredit analysis and because the decision goes well beyond the
scope of the Board's administrative expertise by interpreting a statute — the FAA — that the agency is not charged with enforcing. (Iskanian, supra, 206
CalA.pp.4th at pp. 962-963.)
(14) Even if we ignored all of these authorities and found Horton persuasive, it would be inapplicable to this case in any event. Section 7 of the NLRA
concerns the rights of covered "[ejmployees." (29 U.S.C. § 157.) Under the NLRA, "[t]he term "employee1... shall notinclude... any individual employed
as a supervisor ...." (29 U.S.C. § 152(3), italics added.) A "supervisor" includes anyone who exercises independent judgment in, inter alia, hiring,
assigning, directing, rewarding, promoting, disciplining, or discharging other employees, or in making recommendations in those areas. (29 U.S.C. §
152(11).) There is no evidence in the record as to the nature of Nelsen's duties at LPI. Her title as "Property Manager" suggests she would not even be
covered by the NLRA Decisional law generally excludes "managerial employees" from the coverage of the NLRA (See NLRB v. Beil Aerospace Co. (1974)
416 U.S. 267 [40 L.Ed.2d 134, 94 S.Ct. 1757].) Thus, we have no basis to conclude the NLRA or Horton have any relevance to the arbitration agreement
before this court.

E. Injunctive Relief Claim
https://www.leagle.com/decision/incaco20120718006

6/9

10/28/2020

NELSEN v. LEGACY PARTNERS | 207 Cal.App.4th 1115... | 20120718006| Leagle.com

In her complaint, Nelsen requested injunctive relief for LPI's alleged violations of the UCL. She contends this claim is nonarbitrable under the
Broughton-Cruzdoctrine.12 LPI maintains (l) Nelsen waived her Broughton-Cruz argument by failing to raise it in the trial court, and (2) BroughtonCruzhas, in any event, been abrogated in the wake of Concepcion. We agree with LPI on both counts.
(15) Nelsen asserts she is entitled to raise her Broughton-Cruz argument for the first time on appeal because it is based on "new authority," namely, the
Supreme Court's opinion in Concepcion which, according to Nelsen "drastically changed the legal landscape in regards to arbitration." While it is
[207 CaLApp.4th 1136]

true Concepcion did change the legal landscape regarding arbitration, nothing in Concepcion's reasoning or analysis strengthens Nelsen's BroughtonCruz argument. To the contrary, as discussed post, Concepcion may have destroyed the underpinnings of Broughton-Cruz. That doctrine predated the
proceedings in the trial court, and nothing prevented Nelsen from raising it there. In our view, she has forfeited the issue. (P&D Consultants, Inc. v. City
of Carlsbad (2010) too Cal.App.4th 1222.1344 fllQ Cal.Rptr.3d 2S2l [as a general rule, theories not raised in the trial court cannot be asserted for the first
time on appeal].) Since the application of Broughton-Cruz depends upon a disputed factual assertion — that the injunctive relief Nelsen seeks would
more than incidentally benefit the public — the forfeiture rule must be stringently applied. (Bogacki v. Board of Supervisors (1971) 5 Cal.3d 771. 780 [9.7
Cal-Rptr. 657. _489_Pad.53.7l)
’

(16) In any event, a recent decision of the Ninth Circuit Court of Appeals in Kilgore v. KeyBank, National Assn. (9th Cir. 2012) 673_F.3d_9.47 (Kilgore) casts
grave doubt on whether Broughton-Cruz survives in the wake of Concepcion. We agree with Kilgore that Concepcion adopts a sweeping rule of FAA
preemption. Under Concepcion, the FAA preempts any rule or policy rooted in state law that subjects agreements to arbitrate particular kinds of claims
to more stringent standards of enforceability than contracts generally. Absolute prohibitions on the arbitration of particular kinds of claims such as that
reflected in Broughton-Cruz are the clearest example of such policies: "Although the Broughton-Cruz rule may be based upon the sound public policy
judgment of the California legislature, we are not free to ignore Concepcion's holding that state public policy cannot trump the FAA when that policy
prohibits the arbitration of a 'particular type of claim.1 Therefore, we hold that 'the analysis is simple: The conflicting [Broughton-Cruz] rule is
displaced by the FAA.' Concepcion, 131 S.Ct. 1747. Concepcion allows for no other conclusion." (Kilgore, at p. 963.) Since Broughton-Cruz prohibits
outright the arbitration of claims for public injunctive relief, it is in conflict with the FAA. Nelsen's argument for exempting that claim from arbitration
would have to be rejected on the merits if she had not forfeited it.

,

Hoover v. American Income Life Ins. Co. (2012) 206 Cal.App.4th 1102 fi42 Cal.Rptr.2d 212I. cited by Nelsen following oral argument, does not convince us
otherwise. Hoover does not mention Kilgore or analyze Concepcion's potential relevance to the continued application of Broughton-Cruz. Moreover, the
court in Hoover found the arbitration agreement in issue was not subject to the FAA and did not encompass state statutory claims. (Hoover, at pp. 12081209.) That is not our case.
Nelsen's injunctive relief claim must be arbitrated.
[207 cal.App.4th U37]

III. DISPOSITION
We deny Nelsen's petition for writ of mandate and affirm the correctness of the trial court's order compelling Nelsen to individual arbitration with LPI.
|

Marchiano, P. J., and Dondero, J., concurred.

1

FootNotes

‘
,
;
I

1

1. The arbitration clause further provided for (1) the arbitrator to be a retired superior court judge, subject to disqualification "on the same grounds as
would apply to a judge of such court"; (2) all rules of pleading and evidence to be applicable, "including the right of demurrer... [,] summary judgment,
judgment on the pleadings, and judgment under California Code of Civil Procedure Section 631"; (3) the arbitration award to include a "written reasoned
opinion"; and (4) a right of appeal "at either party's written request" to a second arbitrator who would review the award "according to the law and
procedures applicable to appellate review by the California Court of Appeal... of a civil judgment following court trials."
2. There is no dispute the Federal Arbitration Act (FAA) governs the arbitration agreement. (See Perry v. Thomas (1987) 482 U.S. 483,489 [96 L.Ed.2d
426,107 S.Ct. 2520] [FAA applies to all arbitration agreements in contracts evidencing interstate commerce, and preempts Cal. statute exempting Lab.
Code wage claims from arbitration].)
3. As noted, Nelsen made no mention whatsoever of Franco or the death knell doctrine in her opening brief. In her reply brief she argues the court's
order effectively ended the class litigation, but she makes no contention and cites to no evidence in the record showing it is impracticable for her to
proceed with individual arbitration.

!

:

4. The agreement read in relevant part as follows: "'I agree that any claim, dispute, or controversy... which would otherwise require or allow resort to
any court... between myself and the Company... arising from, related to, or having any relationship or connection whatsoever with my seeking
employment with, employment by, or other association with, the Company... shall be submitted to and determined exclusively by binding arbitration
under the Federal Arbitration Act, in conformity with the procedures of the California Arbitration Act (... including [Code of Civil Procedure] section
1283.05 and all of the act's other mandatory and permissive rights to discovery); provided, however, that: In addition to requirements imposed by law,
any arbitrator herein shall be a retired California Superior Court Judge and shall be subject to disqualification on the same grounds as would apply to a
judge of such court. To the extent applicable in civil actions in California courts, the following shall apply and be observed: all rules of pleading
(including the right of demurrer), all rules of evidence, all rights to resolution of the dispute by means of motions for summary judgment, judgment on
the pleadings, and judgment under Code of Civil Procedure section 631.8. Resolution of the dispute shall be based solely upon the law governing the
claims and defenses pleaded, and the arbitrator may not invoke any basis other than such controlling law, including but not limited to, notions of "just

https://www.leagle.com/decision/incaco20120718006

7/9

NELSEN v. LEGACY PARTNERS | 207 Cal.App.4th 1115... | 20120718006| Leagle.com

10/28/2020
cause.

na icaouiiauiy

lcvjuucu lu

auuvv

iuu

use anu ucncm ui tins agiccincm o luuumLauvud tv

uic

a\.i o pi.ui.euuj.es; uic auiuiauon suau

caichu uic

times set by the act for the giving of notices and setting of hearings. Awards exceeding $50,000.00 shall include the arbitrator's written reasoned
opinion and, at either party's written request within 20 days after issuance of the award, shall be subject to reversal and remand, modification, or
reduction following review of the record and arguments of the parties by a second arbitrator who shall, as far as practicable, proceed according to the
law and procedures applicable to appellate review by the California Court of Appeal of a civil judgment following court trial. I understand by agreeing to
this binding arbitration provision, both I and the Company give up our rights to trial by jury.'" (Little, supra, 29 Cal.4th at pp. 1069-1070.)
5. Nelsen's arbitration agreement, like that in Little, is silent with respect to costs unique to the arbitration forum, such as arbitrator fees. (See Little,
supra, 29 Cal.4th at pp. 1076-1085.) Because the employee's claim in Little involved nonwaivable statutory rights, the Supreme Court construed the
arbitration agreement to require the employer to pay all types of costs unique to arbitration without regard to which party prevailed in the arbitration.
(Id. at pp. 1076-1077,1085, following Armendariz, supra, 24 Cal.4th at p. 113.) Since Nelsen's claims are also based on nonwaivable statutory rights, her
arbitration agreement with LP1 must be construed in the same fashion.
6. In reliance on Green Tree Financial Corp. v. Bazzle( 2003) 529 U.S. LLL [156 L.Ed.2d 414,123 S.Ct. 2402] (Bazzle), the Court of Appeal in Garda v.
DIRECTV, Inc. (2004) 115 Cal.App.4th 297 10 Cal.Rptr.id 1901 also held the arbitrator, not the court, must determine whether class arbitration was
permitted by the arbitration agreement. As Stolt-Nielsen reminds us, however, Bazzle was only a plurality decision on that point and is not binding.
(Stolt-Nielsen, supra, 559 U.S. at p.____[130 S.Ct. at p. 1772].) Stolt-Nielsen itself expressly declined to decide whether the court or the arbitrator must
determine if there is a contractual basis for finding an intent to allow class arbitration. (Ibid.)
7. The agreement encompasses employment-related disputes between Nelsen and LPI or its "owners, partners, directors, officers, managers, team
members, agents, related companies, and parties affiliated with its team member benefit and health plans." The common thread in all such potential
disputes is that they involve the adjudication of Nelsen's rights or obligations, not those of other employees or groups of employees.
8. The agreement provides that all "rules of pleading" shall apply in the arbitration to the extent applicable to civil actions in California courts. The
authorization for class actions, Code of Civil Procedure section 382, is not in the rules of pleading, which are found in part 2, title 6, chapter 1 of the Code
of Civil Procedure, section 420 et seq. (See Kinecta, supra, 205 Cal.App.4th at p. 519, fn. 3 [rejecting the argument that a similar reference to the rules of
pleading evidenced an intent to allow class arbitrations].)

;

9. The analysis in Lewis is representative: "Though acknowledging that Concepcion abrogated Discover Bank, Plaintiff nonetheless contends that
Gentry remains viable because it addresses arbitration agreements contained in employment contracts, while Concepcion pertains to consumer
contracts. Concepcion cannot be read so narrowly.... Like Discover Bank, Gentry advances a rule of enforceability that applies specifically to arbitration
provisions, as opposed to a general rule of contract interpretation. As such, Concepcion effectively overrules Gentry." (Lewis, supra, 818 F.Supp.2d at p.
1167.)
10. Horton was decided after Nelsen filed her opening brief. She cited it for the first time in her reply brief. At our request, LPI responded by letter brief
to the new issues raised by Nelsen based on Horton.
11. The decision was rendered by two members of the Board. The third member was recused (Horton, supra, 357 NLRB No. 184, at p. 1, fn. 1), and two of
the five positions on the Board were vacant at the time.

>
‘
;
:

12. Broughton v. Cigna Healthplans (1999) 21 Cal.Ath 1066.1082-1084 foo Cal.Rptr.2d 224. 988 P.2d 67I (Broughton) held claims for injunctive relief
under the Consumers Legal Remedies Act (Civ. Code, § 1750 et seq.; CLRA) designed to protect the public from deceptive business practices were not
subject to arbitration. Cruz v. PacifiCare Health Systems, Inc. (2003) 20 Cal.4th 303 r122Cal.Rptr.2d 58. 66 P.3d 11571 (Cruz) extended Broughton to
include claims to enjoin unfair competition under the UCL if relief is sought to prevent further harm to the public at large rather than merely to redress
or prevent injury to a plaintiff. (Cruz, at pp. 315-316.)

:
j
r

i

https://www.leagle.com/decision/incaco20120718006

8/9

The Court ofAppeals
RICHARD D. JOHNSON,
Court Administrator/Clerk

of the

State of Washington

January 31, 2020

DIVISION i
One Union Square
600 University Street
Seattle, WA
98101-4170
(206) 464-7750
TDD: (206)587-5505

Randall W. Redford
Puckett & Redford, PLLC
901 5th Ave Ste 800
Seattle, WA 98164-2048
rredford@puckettredford.com

Lauren Leslie Novack
Puckett and Redford
901 5th Ave Ste 800
Seattle, WA 98164-2048
lnovack@puckettredford.com

Andrew Peterson Mazzeo
Lifetime Legal, Pllc/Peterson Mazzeo Law
1235 4th Ave E Ste 200
Olympia, WA 98506-4278
dpm@lifetime. legal

Ryan J. Weatherstone
Puckett and Redford, P.L.L.C.
901 5th Ave Ste 800
Seattle, WA 98164-2048
rweatherstone@puckettredford.com

Addie Smith
2601 76th Ave SE Apt. 502
Mercer Island, WA 98040
absmith27@icloud.com
CASE #: 80780-3-I
Svhadlev, LLC. Respondent v. Addie Smith. Appellants
Counsel:
The following notation ruling by Commissioner Mary Neel of the Court was entered on January
31, 2020:
Before me are several motions and requests for relief, including Addie Smith’s motion
to allow her to proceed in forma pauperis, Smith’s motion for an extension of time to perfect
the record, Smith’s objection to the trial court’s supersedeas decision, Smith’s motion to
expedite her motion to modify and for clarification, Smith’s renewed motion for stay, Smith’s
motion to consolidate, and Syhadley’s motion to lift the stay. This ruling is intended to address
all the currently pending motions (other than Smith’s pending motion to modify). To put the
motions in context, some background is helpful.
In September/October 2019, Hadley Land Owner, LLC (Syhadley, LLC) filed a complaint for
unlawful detainer (King Co. No. 19-2-28674-1) alleging that tenant Addie Smith had failed to
pay monthly rent of $3,011.00 or $100.37 per day and owed past-due rent of $5,066.29. On
November 30, 2019, the trial court issued findings of fact that Smith owed $11,088.29, plus
$100.37 per day after November 30, 2019 until possession was restored. The trial court found
Smith guilty of unlawful detainer, entered judgment for Syhadley, and ordered the clerk to
issue a writ of restitution. On November 22, 2019, the trial court denied reconsideration.
Absent a stay, Smith was to be evicted on November 25, 2019.

On November 22, 2019, Smith filed a notice of appeal and an emergency motion to stay. On
November 25, 2019, I granted a temporary stay to maintain the status quo and allow time for
briefing. The parties filed briefing. On December 19, 2019, I issued a ruling that included the
following:
Under the Residential Landlord-Tenant Act, chapter 59.18 ROW, if a tenant breaches a
rental agreement by failing to make timely rental payments, a landlord may commence
an unlawful detainer action under chapter 59.12 ROW, which is a statutorily created
proceeding that provides an expedited method of resolving the right to possession.
Christensen v. Ellsworth. 162 Wn.2d 365, 370-71, 392 P.2d 827 (1964).
The scope of an unlawful detainer action is narrow, limited to the question of
possession and related issues such as restitution of the premises and rent. Other
claims and counterclaims are generally not allowed, Munden v. Hazelriaa. 105 Wn.2d
39, 45, 711 P.2d 295 (1985), but the court may resolve issues necessarily related to the
parties’dispute over possession. Excelsior Mort. Equity Fund. II, LLC v. Schroeder.
171 Wn. App. 333, 344, 287 P.3d 21 (2012).
In her emergency motion for stay, Smith has raised issues that appear to go beyond the
dispute over possession. She argues that the unlawful detainer statutes do not apply
here because her occupancy of the apartment was part of her employment, citing RCW
59.18.040(8) (the following living arrangements are not intended to be governed by the
provisions of this chapter: occupancy of an employee of a landlord whose right to
occupy is conditioned upon employment in or about the premises). Smith previously
was employed by Syhadley, but apparently was terminated. In the materials before me
it is unclear when the termination occurred. At this point Syhadley has not addressed
Smith’s argument that the unlawful detainer procedure is unavailable. Smith also
argues that as part of her employment she signed an arbitration agreement and that the
dispute must go to arbitration. Again Syhadley has not yet addressed this argument.
The narrow issue before me is whether the temporary stay should continue pending
appeal. RCW 59.12.200 provides:
A party aggrieved by the judgment may seek appellate review of the judgment as
in other civil actions: PROVIDED, That if the defendant appealing desires a stay
of proceedings pending review, the defendant shall execute and file a bond, with
two or more sureties to be approved by the judge, conditioned to abide by the
order of the court, and to pay all rents and other damages justly accruing to the
plaintiff during the pendency of the proceeding.
RCW 59.12.210 further provides:
When the defendant shall appeal, and shall file a bond as provided in RCW
59.12.200, all further proceedings in the case shall be stayed until the
determination of said appeal and the same has been remanded to the superior
court for further proceedings therein.

These statutes are not superseded by the RAPS. See RAP 18.22, Comment (RCW
59.12.200 affects relief available under Rules 8.1 and 8.3, and is retained). The
posting of a bond entitles the tenant to be restored to and remain in the premises until
the appeal is determined. Housing Authority of Pasco v. Pleasant. 126 Wn. App. 382,
390, 109 P.3d 422 (2005). A bond is required only if the tenant wants to continue to
occupy the premises and the tenant seeks a stay pending review, jd.
If the trial court order is to be stayed during the appeal, the statutes require that Smith
post a bond. The amount of the bond is more properly addressed by the trial court in
the first instance. A party may object to the trial court’s decision by motion in this court
under RAP 8.1(h). The temporary stay, which prevents Smith’s immediate eviction, will
remain in place to allow time for the parties to address the issue of the amount of the
bond in the trial court.
On January 3, 2020, Smith filed a motion to modify, on January 21,2020, Smith filed a
supplement to her mmd, and on January 27, 2010, Syhadley filed an answer.
Meanwhile, on January 16, 2020, the trial court entered a supersedeas decision that required
Smith to post a supersedeas bond or alternate security of cash or a certified check in the court
registry in the amount of $53,631.85 by January 30, 2020.
Also on January 16, 2020, Syhadley filed a new complaint for unlawful detainer (King County
No. 20-2-01335-8). The complaint alleges that Smith assaulted another tenant on November
26, 2019 and has been charged with fourth degree assault in Mercer Island; that Smith’s
actions violated RCW 59.18.130(8); and that Syhadley can proceed with an unlawful detainer
action without serving a prelitigation notice. See RCW 59.18.180(4).
On January 27, 2020, Smith filed an objection to the trial court’s supersedeas decision (see
RAP 8.1(h)), along with an emergency motion for stay and other relief. On January 27, 2020, I
issued a ruling that included the following:
Late today appellant Addie Smith filed an objection to the trial court’s supersedeas
decision, emergency motion for stay, and for other relief. Time does not permit me to
address the requests other than the following:
The trial court’s supersedeas decision (Judge Bowman) gives Smith until January 30,
2020 to post the supersedeas cash or bond to keep the stay pending appeal in place.
In the trial court Syhadley filed a motion for an order to show cause why a writ of
restitution and other relief should not be issued/awarded. This proceeding is under a
new cause number. The trial court (Judge Shafer) has signed the order, and the
hearing is set for tomorrow, January 28, 2020 at 9:00 a.m.
The temporary stay of the earlier writ of restitution was to remain in place to allow time
for the trial court to rule on the supersedeas issue and either party to file an objection in

this court. As noted above, the court gave Smith until January 30, 2020 to post the
supersedeas. Smith’s current motion includes her objection to the supersedeas
decision.
I do not have sufficient information before me to address the hearing set for tomorrow
other than to note the stay of the earlier writ of restitution and pending supersedeas
issue.
Syhadley’s answer to the current motion is due January 30, 2020.
On January 28, 2020, the trial court entered judgment for Syhadley on the new unlawful
detainer action and ordered the clerk to issue a writ of restitution to restore possession of the
apartment to Syhadley.
On January 29, 2020, Smith filed a lengthy supplement to her objection to the supersedeas
decision.
On January 30, 2020, the parties filed several motions/answers:
Smith filed a “Supplement to Appellant’s Notice of Appeal and Motion for Stay.”
Smith filed a motion to extend the time to perfect the record.
Syhadley filed an answer to Smith’s motions.
Smith filed a motion for expedited consideration of her motion to modify and for
clarification.
Lastly, today, January 31, 2020, Syhadley filed a motion to lift the stay, noting that Smith had
not posted the supersedeas required to stay the writ of execution pending appeal.
Smith continues to argue that this proceeding is not properly an unlawful detainer action
because living in the apartment was part of her compensation. She argues, accordingly, that
the statute for setting a bond in an unlawful detainer proceeding does not apply and that the
trial court’s supersedeas decision is in error. Smith also argues that her employment dispute
(and her right to live in the apartment) are subject to binding arbitration. Smith further asserts
that she has been the subject of harassment by Syhadley and other tenants, which has
resulted in her developing PTSD, that opposing counsel has committed perjury, and the trial
court is biased and has acted improperly. Smith asserts that she has been unemployed since
August 2019, is destitute, cannot afford to post the bond, and cannot afford to move. Smith
also seeks to consolidate her challenge to the second unlawful detainer proceeding with the
appeal of the first one.
Syhadley argues that the proceeding is properly an unlawful detainer action, reasoning that
Smith’s tenancy was not conditioned on her employment; rather under the rental agreement
her rent was reduced as a benefit while she was employed; that Syhadley could have fired

Smith and collected rent as agreed, but it elected to fire Smith and terminate her tenancy; and
that just because its two actions occurred within a few weeks of each other does not change
the fact that Smith was properly evicted. Syhadley also asserts that the two unlawful detainer
proceedings are separate actions, and only the first one is on appeal so there is nothing to
consolidate.
Given this history, I conclude:
Consolidation - Smith has not filed a notice of appeal challenging the second unlawful
detainer proceeding, so at this point there is nothing to consolidate.
Indigency and preparation of the record - In a civil case, public funds will be expended for an
appeal only if the Supreme Court orders it, and it rarely does so. If Smith wants to pursue this
she must file a motion for findings of indigency in the trial court. If the court finds her indigent,
the superior court shall transmit the findings to the Supreme Court. See RAP 15.2(b), (c), (d).
I will extend the time for Smith to file the designation of clerk’s papers and statement of
arrangements for preparation of a report of proceedings until March 6, 2020.
Supersedeas - Smith’s objection to the trial court’s supersedeas decision is not well taken.
The amount of the supersedeas is proper under the applicable statutes. And even if there
were merit to Smith’s argument that the proceeding is not properly brought as an unlawful
detainer under chapter 58.18, under RAP 8.1(b)(2) and 8.1(c)(2), Smith would be required to
post a supersedeas cash or bond and the amount would be similar, if not more.
Stay - Smith seeks a continuation of the stay pending appeal; Syhadley seeks to have the
stay lifted. As I previously ruled, the posting of a bond entitles a tenant to be restored to and
remain in the premises until the appeal is determined. Housing Authority, 126 Wn. App. at
390. Under this authority, if Smith chooses to remain in the property pending appeal, she
must post the supersedeas; if she does not, she cannot continue to occupy the apartment.
Id.
Expedite motion to modify and clarification - Smith is entitled to a have a panel of judges
consider her motion to modify my prior ruling and this ruling. The temporary stay of the writ of
execution will remain in place to allow time for this. Any motion to modify this ruling is due
February 5, 2020, any answer is due 5 days after service of the motion, and any reply is due 3
days after service of the answer. The motion or motions to modify will be promptly submitted
to a panel of judges once the applicable dates pass.
Therefore, it is
ORDERED that the time to file the designation of clerk’s papers and statement of
arrangements is extended to March 6, 2020; and it is
ORDERED that Smith’s objection to the trial court’s supersedeas decision is denied; and it is

ORDERED that the temporary stay of the writ of execution will remain in place until further
order of this court; and it is
ORDERED that any motion to modify this ruling is due February 5, 2020, any answer is due 5
days after service of the motion, and any reply is due 3 days after service of the answer.

Sincerely,

Richard D. Johnson
Court Administrator/Clerk
HCL

The Court ofAppeals
RICHARD D. JOHNSON,
Court Administrator/Clerk

of the

State of Washington

February 5, 2020
Lauren Leslie Novack
Puckett and Redford
901 5th Ave Ste 800
Seattle, WA 98164-2048
lnovack@puckettredford.com

Addie Smith
2601 76th Ave SE Apt. 502
Mercer Island, WA 98040
absmith27@icloud.com

Ryan J. Weatherstone
Puckett and Redford, P.L.L.C.
901 5th Ave Ste 800
Seattle, WA 98164-2048
rweatherstone@puckettredford.com

Randall W. Redford
Puckett & Redford, PLLC
901 5th Ave Ste 800
Seattle, WA 98164-2048
rredford@puckettredford.com

DIVISION I
One Union Square
600 University Street
Seattle, WA
98101-4170
(206) 464-7750
TDD: (206)587-5505

CASE #: 80780-3-I
Svhadlev, LLC, Respondent v. Addie Smith. Appellant
CASE#: 81080-4-1
Svhadlev. LLC. Respondent v. Addie Smith. Appellant
Counsel:
The following notation ruling by Commissioner Mary Neel of the Court was entered on
February 5, 2020, regarding Appellant's Emergency Motion for Stay:
Both of these appeals involve unlawful detainer. In No. 80780-3-1, Addie Smith
appeals a writ of restitution to remove her from the apartment she lives in on Mercer
Island. The basis of the order is Smith’s failure to pay rent. The trial court has
entered an order requiring Smith to post a bond of $53,631.85 to stay execution of the
writ pending appeal. I have issued several rulings, including denying Smith’s objection
to the trial court supersedeas decision. A temporary stay is in place to allow Smith to
file a motion to modify, which is currently due today, February 5, 2020.
Syhadley also brought a second unlawful detainer action based on Smith’s recent
arrest for fourth degree assault. The trial court has issued a writ of restitution to
remove Smith from the apartment. The sheriff intended to execute the writ this
morning. Late yesterday Smith filed a notice of appeal and an emergency motion for
stay. She seeks a stay pending the upcoming hearing on the criminal proceeding.
The appeal is assigned No. 81080-4-1. I granted a temporary stay to allow time to
further review of the motion.
I now rule as follows:
In both matters, Syhadley seeks to remove Smith from the apartment, albeit on
alternative bases. To simplify the appeals moving forward, review will be

consolidated. Smith’s emergency motion to stay the writ of execution in No. 81080-4-1
is denied.
The temporary stay of both actions will remain in place to allow Smith to file and a
panel of judges to rule on the motions to modify. Smith has already filed a motion to
modify my December 19, 2019 ruling, and Syhadley has filed an answer. I will extend
the date for Smith’s motion to modify so that all motions to modify can be considered
together. Accordingly, any motion to modify my January 31, 2020 ruling and this ruling
is due February 7, 2020, any answer is due 5 days after service of the motion, and
any reply is due 3 days after service of the answer. The motions to modify will be
submitted to a panel of judges for consideration.
Therefore, it is
ORDERED that review in No. 81080-4-1 is consolidated under No. 80780-3-1; and it is
ORDERED that the temporary stays of the writs of execution will remain in place until
further order of this court; and it is
ORDERED that any motion to modify my January 31, 2020 ruling and this ruling is due
February 7, 2020, any answer is due 5 days after service of the motion, and any reply
is due 3 days after service of the answer.

Sincerely

Richard D. Johnson
Court Administrator/Clerk
HCL

Cc: Hon. Julie Spector
Hon. Brad Moore

The Court of Appeals
of line
RfDIARD D. JOICKSOK
Ct.wri.
Clerk

State of Washington

February 20, 2020

division i
One Ututm-Stfta;?
600 Univcmiy Sirctf
S-jaill?. VVA
*8101-4170
l2G*j4«Vt.?75fl
TOO-: *20*) &7.5505

Randall W. Redford
Puckett & Redford, PLLC
901 5th Ave Ste 800
Seattle, WA 98164-2048
rredford@puckettredford.com

Lauren Leslie Novack
Puckett and Redford
901 5th Ave Ste 800
Seattle, WA 98164*2048
lnovack@puckettredford.com

Andrew Peterson Mazzeo
Lifetime Legal, PHc/Peterson Mazzeo Law
1235 4th Ave E Ste 200
Olympia, WA 98506-4278
dpm@iifetime. legal

Ryan J. Weatherstone
Puckett and Redford, P.L.L.C.
901 Sth Ave Ste 800
Seattle, WA 98164-2048
nweatherstone@puckettredford.com

Addie Smith
2601 76th Ave SE Apt. 502
Mercer Island, WA 98040
absmith27@»cloud .com
CASE #: 80780-3-1
Svhadlev. LLC._ Respondent v. Addie Smith. Appellants
Counsel:
Please find enclosed a copy of the Order Denying Motions to Modify and to Compel Arbitration,
and Lifting Temporary Stays entered in the above case today.
The order will become final unless counsel files a motion for discretionary review within thirty
days from the date of this order. RAP 13.5(a).
Sincerely,

Richard D. Johnson
Court Administrator/Clerk
enclosure

HCL
Cc: Hon. Julie Specter
Hon. Brad Moore

FILED
2/20/2020
Court of Appeals

THE COURT Of APPEALS OF THE STATE OFgta^§®g/$t6n
DIVISION ONE
SYHADIEY.LLC,

Respondent,

3
)
3

)

v,
ADDie SMITH,
Ap potent,

)
)
j
)
)
)

No 80760-3-1
consolidated with
No 81080-4-f
ORDER DENYING
MOTIONS TO MODIFY
AND TO COMPEL
ARBITRATION, AND
LIFTING TEMPORARY STAYS

Appellant Addis Smith has fifed motions to modify Commissioner Neef s
December 19, 2019, January 31,2020, and Febiuary 5.2020 rulings and has
also moved to compel arbitration, We have considered the motions to modify
under RAP !7.7 and have determined that they should be denied. Smith's
motion io compel arbitration goes to the merits of her appeals and js denied as
premature, in accordance wish the commissioner's February 5,2020 ruling
leaving the temporary stays in place pending resolution of the motions to modify,
the temporary stays are hereby rifled,
Now, therefore, it is hereby
ORDERED that the motions to modify and to compel arbitration are dented;
and It Is further
ORDERED that the temporary slays in both unlawful detainer actions are
lifted.

(2d***.}
\y

%

t

FILED
SUPREME COURT
STATE OF WASHINGTON
4/9/2020
BY SUSAN L. CARLSON
CLERK

IN THE SUPREME COURT OF THE STATE OF WASHINGTON

SYHADLEY, L.L.C.,
Respondent,

No. 9 8 1 9 6-5
Court of Appeals No. 80780-3-1

v.

RULING DENYING REVIEW

ADDIE SMITH,
Petitioner.

Pro se petitioner Addie Smith seeks discretionary review of a decision by
Division One of the Court of Appeals denying her motion to compel arbitration and
lifting previously imposed stays of writs of restitution issued by the King County
Superior Court in two unlawful detainer actions filed by Ms. Smith’s landlord and
former employer, respondent Syhadley, L.L.C., while Ms. Smith’s consolidated appeals
are pending. The primary disputed issue here is whether Ms. Smith should be required
to post a supersedeas bond pending appeal. See RCW 59.12.200. On Ms. Smith’s
emergency motion, I stayed the writs of restitution pending expedited consideration of
Ms. Smith’s motion for discretionary review. The matter proceeded to oral argument
by teleconference on March 26, 2020. As for Ms. Smith’s pending appeal, she moved
for an expenditure of public funds for purposes of pursuing that appeal, which
Department One of this court denied on March 31, 2020. The instant motion for
discretionary is now denied, as explained below.

NO. 98196-5

Page 2

Ms. Smith was employed by respondent to manage its apartment complex. She
was also a resident of the complex, but her lease was not conditioned on her
employment by respondent. Her compensation for managing the complex included a
rent credit. Ms. Smith was an at-will employee, but her employment agreement included
an arbitration clause for employee-employer disputes.
Respondent subsequently terminated Ms. Smith’s employment. After her
termination, Ms. Smith defaulted on her rent payments. Respondent filed an unlawful
detainer action. The superior court granted a writ of restitution, concluding that
Ms. Smith owed over $11,000 in unpaid rent, and awarded respondent reasonable costs
and attorney fees. Ms. Smith then appealed. While the appeal was pending, Ms. Smith
was arrested and charged with assaulting another tenant, which led to a second unlawful
detainer action resulting in judgment in favor of respondent. Ms. Smith appealed the
second unlawful detainer judgment, and the Court of Appeals consolidated the cases.
Ms. Smith now has two writs of restitution entered against her. The superior court
set a supersedeas bond amount of $53,631.85 to stay execution of the writs pending
appeal. Ms. Smith challenged the supersedeas decision by way of a motion for
discretionary review. Ms. Smith also moved to compel arbitration.
Commissioner Mary Neel entered multiple rulings denying relief on the
supersedeas issue but maintaining a temporary stay of the writs of restitution pending
Ms. Smith’s motions to modify her rulings. A panel of judges denied Ms. Smith’s
motion to compel arbitration as premature, denied her motions to modify the
commissioner’s rulings, and lifted the temporary stays. RAP 17.7. Ms. Smith now seeks
discretionary review in this court. RAP 13.3(a)(2), (c), (e); RAP 13.5(a). She also
moved for accelerated consideration and an emergency stay. As indicated, I stayed the
writs of restitution pending resolution of the instant matter in this court. I further

No. 98196-5

Page 3

directed that the motion for discretionary review be placed on my earliest available
motion calendar, but Ms. Smith’s motion for oral argument caused some delay.
As a preliminary matter, a few days before oral argument, Ms. Smith, who had
asked for accelerated consideration, filed a motion to continue oral argument pending
further development of her appeal. I denied that motion, and Ms. Smith has moved to
modify that ruling. Ms. Smith also moved for me to recuse myself, claiming I am
prejudiced against her. There is no persuasive basis for my recusal or disqualification.
I have never participated in a previous proceeding involving Ms. Smith, and I have
never met her, apart from a fleeting but cordial telephone conversation a few weeks
ago, where I merely directed Ms. Smith to the clerk’s office to answer her questions
about setting up a telephonic hearing. As I explained to Ms. Smith at oral argument, I
denied the motion to continue the hearing because I believed it was very important to
hear her views on this matter. I further assured her that it was my determination to
decide this matter solely on the briefing, the applicable legal authorities, and the record,
and that I would not rule on the matter immediately in light of her then pending motion
for an expenditure of public funds, which this court has since denied. I denied the
recusal motion orally at the teleconference hearing and do so again in this ruling.
Moving on, to obtain discretionary review in this court, Ms. Smith must
demonstrate that the Court of Appeals committed obvious error that renders further
proceedings useless; or that it committed probable error that substantially alters the
status quo or that substantially limited a party’s freedom to act; or that the Court of
Appeals departed so far from the accepted and usual course of judicial proceedings, or
so sanctioned such a departure by the superior court, as to justify this court exercising
its revisory jurisdiction over this matter. RAP 13.5(b). Ms. Smith contends that the
Court of Appeals committed probable error within the meaning of RAP 13.5(b)(2) and

NO. 98196-5

Page 4

that it departed from the accepted and usual course of judicial proceedings under
RAP 13.5(b)(3).
Ms. Smith first contends that the Court of Appeals erred in declining to consider
her motion to compel arbitration as premature. She relatedly argues that the superior
court did not rule on her motion to compel arbitration. The Court of Appeals stated that
the motion to compel arbitration went to the merits of her appeal. The issue properly
before the Court of Appeals at that moment was Ms. Smith’s motion to modify the
commissioner’s rulings as they pertained to Ms. Smith’s requirement to file a
supersedeas bond. RAP 17.7. The Court of Appeals committed no error, either
obviously or probably, in declining to consider a matter not properly before it in relation
to a motion to modify.
Ms. Smith further asserts that the Court of Appeals erroneously denied her
challenges to the supersedeas amounts set by the superior court and claims that she was
exempt from supersedeas as respondent’s employee. It seems one of Ms. Smith’s
primary theories is that she is not subject to an unlawful detainer action because this is
essentially an employee-employer dispute. In other words, it is Ms. Smith’s position
that she’s not a tenant but rather an employee who seeks to arbitrate her termination.
But the employment related documents in the record show that Ms. Smith’s apartment
lease was not conditioned on her employment by respondent. See RCW 59.18.040(8)
(unlawful detainer statute does not apply where tenant’s right to occupy premises
conditioned on tenant’s employment by landlord). Her rent was covered as part of her
compensation package while she was employed as apartment manager, but once that
relationship ended, she had to start paying rent directly out of her own pocket. This is a
relatively straightforward unlawful detainer case. Ms. Smith was the losing party in that
matter and is now subject to two writs of restitution. She was required to post a
supersedeas bond to stay execution of the writs pending appeal. RCW 59.12.200, .210.

NO. 98196-5

Page 5

Ms. Smith alleges she is the victim of racially motivated violence, particularly
by other apartment tenants. This claim causes me concern; however, other claims and
counterclaims are generally not allowed in unlawful detainer proceedings unless they
are necessarily related to the right of possession of the premises. Munden v. Hazelrigg,
105 Wn.2d 39, 45, 711 P.2d 295 (1985); Excelsior Mortg. Equity Fund, II, LLC v.
Schroeder, 171 Wn. App. 333, 344, 287 P.3d 21 (2012). Ms. Smith has not made that
showing. She must seek some other way to obtain relief from the alleged racially
motivated acts against her.
Ms. Smith contends that the Court of Appeals erred in lifting the stay of the writs
of restitution. That issue alone does not warrant review. Besides, the stay has been
maintained while the instant motion for discretionary review was considered.
But even if the Court of Appeals committed probable error (which need not be
decided), Ms. Smith cannot show a substantial change in the status quo or a substantial
limitation on her freedom to act for purposes of that rule. The rule does not apply if the
decision merely alters the status quo of litigation or affects a party’s freedom to act in
relation to that litigation. State v. Howland, 180 Wn. App. 196, 207, 321 P.3d 303
(2014), review denied, 182 Wn.2d 1008 (2015). The Court of Appeals decision affects
the status of the unlawful detainer action only pending Ms. Smith’s appeal.
Ms. Smith also complains that the Court of Appeals departed from the accepted
and usual course of judicial proceeding by failing to sanction opposing counsel for
perjury. RAP 13.5(b)(3). This appears to be part of Ms. Smith’s unfortunate tendency
to make personal attacks on judges and lawyers who displease her. There is no apparent
factual basis for these assertions. There is no indication of a reviewable departure from
the accepted and usual course of judicial proceedings.
In sum, Ms. Smith fails to show the existence of grounds justifying this court’s
interlocutory review under RAP 13.5(b). The motion for discretionary review is

NO. 98196-5

Page 6

therefore denied. The current stay of the writs of restitution will be maintained until
expiration of the time for filing a motion to modify this ruling, or if such motion is filed,
until further order of this court. The parties are also reminded that further action to
effectuate Ms. Smith’s eviction may be subject to restrictions imposed in light of the
ongoing COVID-19 emergency.

7COMMISSIONER
April 9, 2020

FILED
SUPREME COURT
STATE OF WASHINGTON
7/8/2020
BY SUSAN L. CARLSON
CLERK

THE SUPREME COURT OF WASHINGTON
SYHADLEY, LLC,
Respondent,
v.
ADDIE SMITH,

)
)
)
)
)
)
)

)
Petitioner.

No. 98196-5
ORDER
Court of Appeals
No. 80780-3-1
(consolidated with No. 81080-4-1)

)
)
)
)

Department I of the Court, composed of Chief Justice Stephens and Justices Johnson,
Owens, Gordon McCloud and Montoya-Lewis (Justice Gonzalez sat for Justice Johnson),
considered this matter at its July 7,2020, Motion Calendar and unanimously agreed that the
following order be entered.
IT IS ORDERED:
That the Petitioner’s motion to modify the Commissioner’s ruling is denied. The
Respondent’s motion for an order requiring the Appellant to provide a transcript of the oral
argument before the Commissioner is also denied. Further, the stay imposed in the Supreme Court
Commissioner’s April 9, 2020, ruling is now lifted.
DATED at Olympia, Washington, this 8th day of July, 2020.
For the Court
z.

FILE

THIS OPINION WAS FILED
FOR RECORD AT 8 A.M. ON
AUGUST 20, 2020

IN CLERK’S OFFICE
SUPREME COURT, STATE OF WASHINGTON

AUGUST 20, 2020

r

SUSAN L. CARLSON
SUPREME COURT CLERK

ft 0-

CHIEF JUSTICE

IN THE SUPREME COURT OF THE STATE OF WASHINGTON

STEVEN BURNETT, individually and on
behalf of all others similarly situated,
Respondents,
v.
PAGLIACCI PIZZA, INC., a Washington
corporation,
Petitioner.

)
)
)
)
)
)
)
)
)
)
)

No. 97429-2

En Banc

Filed August 20,2020

MADSEN, J.—This case has its genesis in a putative class action alleging wage
and hour claims by delivery drivers against their employer, Pagliacci Pizza Inc. At issue
on interlocutory review is whether the trial court sustainably denied the employer’s
motion to compel arbitration. The Court of Appeals affirmed, determining that the
mandatory arbitration policy contained in the employee handbook, which was provided to
the named plaintiff after he signed the employment relationship agreement, was
procedurally and substantively unconscionable and, thus, unenforceable. For the reasons
discussed below, we affirm the denial of the motion to compel arbitration.

No. 97429-2
FACTS
After two interviews, Pagliacci Pizza hired Steven Burnett as a delivery driver.
Burnett attended a mandatory new employee orientation at a local Pagliacci Pizza
location on October 16, 2015 that lasted between 40 minutes and an hour. During the
orientation, Pagliacci gave Burnett multiple forms and told him to sign them so that he
could start working. One of the forms that Burnett signed was a one-page “Employee
Relationship Agreement” (ERA).
The ERA does not mention arbitration. Instead, it contains a section entitled
“Inconsistencies in Hours/Pay/Breaks” that instructs employees to “promptly inform
Human Resources” if they have concerns about breaks, pay, hours, or benefits. Clerk’s
Papers (CP) at 58. It says nothing about arbitration of disputes.
A section of the ERA, entitled “Accountability,” addresses employee till shortages
and employee failure to return “non-cash property of Pagliacci Pizza.” Id. It authorizes
Pagliacci to deduct directly from an employee’s pay the amount of any till shortage,
money the employee otherwise owes to Pagliacci, or the cost of any noncash property.
Pagliacci’s “Mandatory Arbitration Policy” (MAP) is printed in Pagliacci’s
employee handbook, “Little Book of Answers.” CP at 60-73. Little Book of Answers is
a 23-page booklet in which Pagliacci’s MAP appears on page 18. The MAP is not listed
in the handbook’s table of contents, and page 18 falls within the “Mutual Fairness
Benefits” section. CP at 62.
Burnett was given a copy of Little Book of Answers during his orientation and
told to read it at home. Consistent with that instruction, the ERA contains a section
2

No. 97429-2
entitled “Rules and Policies.” CP at 58. It provides, “On your own initiative you will
learn and comply with the rules and policies outlined in our Little Book of Answers,
including those that relate to positive attitude, public safety, company funds, tips and
FAIR policy.” Id. It also says that Pagliacci “will on occasion” change the policies and
procedures contained in Little Book of Answers. Id.
The MAP contained in the handbook states, in full:
The company has a mandatory arbitration policy with which you must
comply for the binding resolution of disputes without lawsuits. If you
believe you have been a victim of illegal harassment or discrimination or
that you have not been paid for all hours worked or at less than the rate of
pay required by law or that the termination of your employment was
wrongful, you submit the dispute to resolution in accordance with the
F.A.I.R. Policy and if those procedures are not successful in resolving the
dispute, you then submit the dispute to binding arbitration before a neutral
arbitrator pursuant the Washington Arbitration Act.
CP at 71 (emphasis added). As can be seen, the MAP provides that the employee must
submit disputes “to resolution in accordance with the F.A.I.R. Policy” before
commencing arbitration. Id.
The “F.A.I.R. Policy,” which is also contained in the handbook, is an informal
multistep process that utilizes “supervisor review” and “conciliation.” CP at 70. The
opening paragraph of the F.A.I.R. Policy states:
F.A.I.R. stands for Fair and Amicable Internal Resolution. If you believe
you have been treated unfairly in any way in your employment at Pagliacci
Pizza (i.e., in the application of its rules and policies to you, not in the
content of the rules and policies themselves), or if you believe the content
of any of the rules or policies to be unlawful, or if you believe any of your
rights have been violated, or if you believe you have been harassed,
discriminated against or wrongfully terminated as described in the Pagliacci
Pizza Arbitration Policy or the Pagliacci Pizza Unlawful Harassment
Policy, you will use the steps and procedures of the F.A.I.R. Policy to
3

No. 97429-2
attempt in good faith to resolve the dispute to the mutual satisfaction of you
and Pagliacci Pizza without arbitration.
Id. The F.A.I.R. Policy then directs:
1ST STEP - SUPERVISOR REVIEW
Informally report the matter and all details to your supervisor who will
discuss the matter with you.
2ND STEP - CONCILIATION
If Supervisor Review does not resolve the matter to your satisfaction, you
may initiate non-binding Conciliation. The F.A.I.R. Administrator will
designate a responsible person at Pagliacci Pizza (who may be its owner) to
meet face-to-face with you in a non-binding Conciliation.
Id. The F.A.I.R. Policy then provides a “Limitations on Actions” section, stating:
You may not commence an arbitration of a claim that is covered by the
Pagliacci Pizza Arbitration Policy or commence a lawsuit on a claim that is
not covered by the Pagliacci Pizza Arbitration Policy unless you have first
submitted the claim for resolution in conformity with the F.A.I.R. Policy
and fully complied with the steps and procedures in the F.A.I.R. Policy. If
you do not comply with a step, rule, or procedure in the F.A.I.R. Policy
with respect to a claim, you waive any right to raise the claim in any court
or other forum, including arbitration. The limitations set forth in this
paragraph shall not be subject to tolling, equitable or otherwise.
Id.
Pagliacci terminated Burnett on June 22, 2017. On October 20, 2017, Burnett
filed a putative class action complaint alleging various wage related claims. Pagliacci
moved to compel arbitration under its MAP contained in Little Book of Answers.
Burnett opposed Pagliacci’s motion to compel arbitration, arguing that the MAP
was both procedurally and substantively unconscionable. The trial court denied
Pagliacci’s motion to compel arbitration. In its oral ruling, the court expressed its
concerns regarding both procedural and substantive unconscionability but declined to
4

No. 97429-2

reach those issues and instead ruled that the arbitration provision contained in the
handbook was not incorporated into the ERA. Pagliacci moved for reconsideration,
which the trial court denied.
Pagliacci appealed, and the Court of Appeals affirmed. Burnett v. Pagliacci Pizza,
Inc., 9 Wn. App. 2d 192, 442 P.3d 1267 (2019). The Court of Appeals agreed with
Pagliacci that the trial court erred in concluding the MAP was not incorporated into the
ERA and consequently there was no agreement to arbitrate. Nevertheless, the Court of
Appeals ruled that because Burnett did not have a reasonable opportunity to review the
arbitration policy before he was required to sign the ERA, the circumstances surrounding
the formation of the parties’ agreement to arbitrate were procedurally unconscionable.
The court further held that the MAP is substantively unconscionable because certain
prerequisites to arbitration required by the policy unreasonably favor Pagliacci by
limiting employees access to substantive remedies and discouraging them from pursuing
valid claims. Pagliacci petitioned for and was granted this court’s review. Burnett v.
Pagliacci Pizza, Inc., 194 Wn.2d 1001 (2019).
ANALYSIS
Standard of Review
Washington policy favors arbitration. RCW 7.04A.060; Adler v. Fred Lind
Manor, 153 Wn.2d 331, 342, 103 P.3d 773 (2004). This policy does not, however, lessen
the court’s responsibility to determine whether the arbitration contract is valid. Hill v.
Garda CL Nw., Inc., 179 Wn.2d 47, 53, 308 P.3d 635 (2013). The agreement to arbitrate
is a contract, the validity of which courts review absent a clear agreement to not do so.
5

No. 97429-2
Id. Whether or not a contract is unconscionable is a preliminary question for judicial
consideration. Romney v. Franciscan Med. Grp., 186 Wn. App. 728, 740, 349 P.3d 32
(2015).
A reviewing court reviews de novo a trial court’s decision to compel or deny
arbitration. Gandee v. LDL Freedom Enters., Inc., 176 Wn.2d 598, 602, 293 P.3d 1197
(2013); Satomi Owners Ass ’n v. Satomi, LLC, 167 Wn.2d 781, 797, 225 P.3d 213 (2009).
The burden of demonstrating that an arbitration agreement is not enforceable is on the
party opposing the arbitration. Zuver v. Airtouch Commc’ns, Inc., 153 Wn.2d 293, 302,
103 P.3d 753 (2004).
Assent to Arbitration
As a threshold matter, Burnett argues that because he had no notice of the MAP
when he signed the ERA, he never assented to the MAP and “[t]his alone is a basis for
affirming the trial court.” Resp’t’s Suppl. Br. at 9. We agree.
Pagliacci’s MAP contains a choice of law provision that expressly selects “the
Washington Arbitration Act.”1 CP at 71. The Washington arbitration act requires courts
to determine whether there is an agreement to arbitrate and, if so, whether it is
enforceable. See Saleemi v. Doctor’s Assocs., 176 Wn.2d 368, 376, 292 P.3d 108 (2013)
(courts “determine the threshold matter of whether an arbitration clause is valid and

Although the Washington arbitration act “does not apply to any arbitration agreement between
employers and employees,” RCW 7.04A.030(4), an employer and employee may select the
Washington arbitration act as the governing law in an agreement to arbitrate. See Dep ’t of Soc.
& Health Servs. v. State Pers. Bd., 61 Wn. App. 778, 783, 812 P.2d 500 (1991) (so holding,
addressing the equivalent provision under the prior act).
6

No. 97429-2
enforceable”). “If the court finds that there is an enforceable agreement to arbitrate, it
shall order the parties to arbitrate. If the court finds that there is no enforceable
agreement, it may not order the parties to arbitrate.”2 RCW 7.04A.070(2).
Arbitration agreements stand on equal footing with other contracts and may be
invalidated by “[gjeneral contract defenses such as unconscionability.” McKee v. AT&T
Corp., 164 Wn.2d 372, 383, 191 P.3d 845 (2008); Kindred Nursing Ctrs. Ltd. P’ship v.
Clark,___U.S.___ , 137 S. Ct. 1421, 1426, 197 L. Ed. 2d 806 (2017) (court may
invalidate arbitration clause based on generally applicable contract defenses like fraud or
unconscionability); AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 339, 131 S. Ct.
1740, 179 L. Ed. 2d 742 (2011) (same).
“Mutual assent is required for the formation of a valid contract. ‘It is essential to
the formation of a contract that the parties manifest to each other their mutual assent to
the same bargain at the same time.’” Yakima County (W. Valley) Fire Prot. Dist. No. 12
v. City of Yakima, 122 Wn.2d 371, 388, 858 P.2d 245 (1993) (quoting Pac. Cascade
Corp. v. Nimmer, 25 Wn. App. 552, 555-56, 608 P.2d 266 (1980)). This rule applies to
the formation of an arbitration agreement just as it does to the formation of any other
contract. “While a strong public policy favoring arbitration is recognized under both
federal and Washington law, ‘arbitration is a matter of contract and a party cannot be
required to submit to arbitration any dispute which he has not agreed so to submit.’”
2 The same would be true if the Federal Arbitration Act, 9 U.S.C. §§ 1-16, were applicable. See
Granite Rock Co. v. Int’l Bhd. of Teamsters, 561 U.S. 287, 297, 130 S. Ct. 2847, 177 L. Ed. 2d
567 (2010) (“a court may order arbitration of a particular dispute only where the court is satisfied
that the parties agreed to arbitrate that dispute,” and the court must resolve any issues over
“whether the clause was agreed to”).
7

No. 97429-2

Satomi Owners Ass ’n, 167 Wn.2d at 810 (internal quotation marks and citations omitted)
(quoting Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 83, 123 S. Ct. 588, 154 L.
Ed. 2d 491 (2002)); Woodall v. Avalon Care Ctr.-Federal Way, LLC, 155 Wn. App. 919,
934-35, 231 P.3d 1252 (2010) (“As an important policy of contract, one who has not
agreed to arbitrate cannot generally be required to do so.”); Lamps Plus, Inc. v. Varela,
U.S.

, 139 S. Ct. 1407, 1415, 203 L. Ed. 2d 636 (2019) (“‘[T]he first principle

that underscores all of our arbitration decisions’ is that ‘[arbitration is strictly a matter of
consent.’” (alterations in original) (quoting Granite Rock Co. v. Int’IBhd. of Teamsters,
561 U.S. 287, 299, 130 S. Ct. 2847, 177 L. Ed. 2d 567 (2010))).
Here, the trial court found “there is no agreement to arbitrate” between Burnett
and Pagliacci. CP at 227. The trial court explained in part that a reasonable person could
not find that Burnett had agreed to arbitration by signing the ERA, given the ERA’s
failure to mention arbitration and because the terms of the handbook directly contradict
the ERA’s language about hours, pay, and breaks, as to what an employee is supposed to
do and is agreeing to do. The trial court correctly determined that if an arbitration clause
is not agreed to by both sides, “then it’s not binding.” Verbatim Transcript of
Proceedings at 24.
The Court of Appeals acknowledged the trial court’s concerns, expressing
skepticism that “under the circumstances presented here, Burnett [had] effectively waived
any statutorily conferred right to maintain a civil action.” Burnett, 9 Wn. App. 2d at 212.
The Court of Appeals explained, “Burnett did not have a reasonable opportunity to
understand that he was agreeing to arbitrate—much less to understand the types of claims
8

No. 97429-2
he was agreeing to arbitrate or to intentionally and voluntarily relinquish his right to
pursue those claims in court.” Id. Nevertheless, the Court of Appeals concluded “that an
agreement to arbitrate exists here” because Little Book of Answers was incorporated by
reference into the ERA. Id. at 201.
Burnett effectively argues that this conclusion is error. The Court of Appeals
recognized that incorporation by reference does not, in itself, establish mutual assent to
the terms being incorporated. Id. at 200. “‘[I]t must be clear that the parties to the
agreement had knowledge of and assented to the incorporated terms.”’ Id. (alteration in
original) (internal quotation marks omitted) (quoting W. Wash. Corp. of Seventh-Day
Adventists v. Ferrellgas, Inc., 102 Wn. App. 488, 494-95, 7 P.3d 861 (2000)). Even if the
Court of Appeals is correct that the mention of the handbook in the ERA effectively
incorporates the handbook by reference into the ERA, that does not mean there was an
effective arbitration agreement between Burnett and Pagliacci. Burnett still had no
knowledge of the arbitration provision terms when he signed the ERA. While the
arbitration provision existed in the handbook when Burnett signed the ERA, Burnett still
had no knowledge of it as he was expected to read the handbook later, on his own time.
See Weiss v. Lonnquist, 153 Wn. App. 502, 511, 224 P.3d 787 (2009) (under Washington
law, for a contract to exist there must be mutual assent to its essential terms).
Mutual assent is gleaned from outward manifestations and circumstances
surrounding the transaction. Id. The Court of Appeals held, “[T]here is no evidence in
the record that Burnett had a reasonable opportunity to understand the terms contained in
the Little Book—and specifically the mandatory arbitration policy—before he signed the
9

No. 97429-2

ERA.” Burnett, 9 Wn. App. 2d at 204. “Instead, the record reflects that Burnett was not
afforded an opportunity to review the Little Book before signing the ERA.” Id. Because
Burnett lacked knowledge of the incorporated terms, he never assented to the MAP.
As Amicus Washington Employment Lawyers Association (WELA) notes, an
arbitration provision included in an employee handbook is enforceable only if the
employee is given explicit notice about such provision. See Amicus Br. of WELA at 12
(citing Kramer v. Toyota Motor Corp., 705 F.3d 1122, 1126 (9th Cir. 2013), for the
proposition that arbitration is a matter of contract and a party cannot be required to
submit to arbitration any dispute that he has not agreed so to submit). WELA points to
Nelson v. Cyprus Bagdad Copper Corp., 119 F.3d 756 (9th Cir. 1997), in which the
Ninth Circuit addressed the efficacy of an arbitration clause contained in a handbook
under circumstances similar to this case. The court noted that when the employee was
given a copy of the revised employee handbook, he “signed an acknowledgment of
receipt,” but “[n]othing in that acknowledgment notified Nelson either that the Handbook
contained an arbitration clause or that his acceptance of the Handbook constituted a
waiver of his right to a judicial forum in which to resolve claims covered by the ADA
[(Americans with Disabilities Act)].” Id. at 761. “Merely signing the form did not in any
way constitute a ‘knowing agreement to arbitrate,’ and thereby to surrender his statutory
right to a judicial forum.” Id.
The Ninth Circuit further concluded that “Nelson’s continued employment after he
received the Handbook, and after he read it (and we assume he did), did not amount to [a]
‘knowing agreement.’” Id. at 762. That was so because “[njothing in either the
10

No. 97429-2

acknowledgment form or the Handbook itself put Nelson on notice that by not quitting
his job he was somehow entering into an agreement to waive a specific statutory remedy
afforded him by a civil rights statute.” Id. “Any bargain to waive the right to a judicial
forum for civil rights claims, including those covered by the ADA, in exchange for
employment or continued employment must at the least be express: the choice must be
explicitly presented to the employee and the employee must explicitly agree to waive the
specific right in question.” Id. (emphasis added).
In answer to WELA, Pagliacci Pizza summarily dismisses Nelson as an “old” and
“inapposite” case, relying instead on Adler for the proposition that a person who
knowingly and voluntarily agrees to arbitration implicitly waives the right to a jury trial
by agreeing to the alternate forum of arbitration. See Pet’r’s Resp. to Amicus Br. of
WELA at 8-9 (citing Adler, 153 Wn.2d at 337). But that is precisely the point, Burnett,
like the employee in Nelson, did not agree to arbitrate. In such circumstance, the Nelson
court concluded that the unilateral promulgation by an employer of arbitration
provisions in an Employee Handbook does not constitute a ‘knowing agreement’ on the
part of an employee to waive a statutory remedy.” 119 F.3d at 762. “[T]he right to a
judicial forum is not waived even though the Handbook is furnished to the employee and
the employee acknowledges its receipt and agrees to read and understand its contents.”
Id. “[T]he right is not waived even when the employee performs his obligations by

11

No. 97429-2

commencing or continuing to do his assigned work and accepting a paycheck in return.”
Id}

Under Nelson, the fact that Burnett delivered pizzas after signing the ERA, and was paid for
doing so, did not render the arbitration provision contained in Little Book of Answers a
“knowing agreement.” Nelson, 119 F.3d at 762. As noted, the waiver of a judicial forum via an
arbitration provision “must be explicitly presented to the employee and the employee must
explicitly agree to waive the specific right in question.” Id.; see also id. 762 n.12 (noting that
the ‘knowing waiver’ standard” is the “controlling law” in the Ninth Circuit). “‘[A] party
cannot be required to submit to arbitration any dispute which he has not agreed so to submit.’”
Granite Rock, 561 U.S. at 301 n.8 (quoting United Steelworkers ofAm. v Warrior & Gulf
Navigation Co., 363 U.S. 574, 582, 80 S. Ct. 1347, 4 L. Ed. 2d 1409 (I960)). While “contract
law defines formation as acceptance of an offer on specified terms,” id. at 304 n.l 1, “[t]he test
for arbitrability remains whether the parties consented to arbitrate the dispute in question ” Id •
see also Kummetz v. Tech Mold, Inc., 152 F.3d 1153, 1156 (9th Cir. 1998) (where employer did
not explicitly present the arbitration agreement to the new employee, and the employee did not
explicitly accept the agreement, employee did not knowingly enter into an agreement to arbitrate;
that is, no arbitration agreement was formed); Trumbull v. Century Mktg. Corp., 12 F. Supp. 2d
683, 687 (N.D. Ohio 1998) (relymg on Nelson in denying motion to compel arbitration because
there is no reference to the [arbitration] clause or its significance in the acknowledgment
plaintiff was asked to sign” and “[accordingly, it cannot be concluded that there was a knowing
waiver of the right to a judicial forum, nor can it be concluded that plaintiff, or any ordinary
person, would contemplate that such an important legal right was at issue”)- cf. Bailey v Fed
Nat’l Mortg. Ass n, 341 U.S. App. D.C. 112, 209 F.3d 740, 741 (2000) (where new arbitration
provision was unilaterally imposed on existing employee who continued to work, there was no
meeting of minds and, thus, no arbitration agreement to enforce). In Ramirez-De-Arellano v
Am. Airlines, Inc., 133 F.3d 89 (1st Cir. 1997), the First Circuit Court of Appeals noted “the'
existence of a strong federal policy favoring arbitration,” but nevertheless acknowledged that
“the threshold question for review must always be whether the agreement to arbitrate was,
indeed, voluntary and intentional.” Id. at 90 (citing Mitsubishi Motors Corp. v. Soler ChryslerPlymouth Inc., 473 U.S. 614, 626, 105 S. Ct. 3346, 87 L. Ed. 2d 444 (1985)). The First Circuit
quoted Nelson with approval for the proposition that “‘[a]ny bargain to waive the right to a
judicial forum ... in exchange for employment or continued employment, must at least be
express, the choice must be explicitly presented to the employee and the employee must
explicitly agree to waive the specific right in question.’” Id. at 91 n.2 (quoting Nelson, 119 F.3d
at 762).
’
Further, performance ofjob duties by Burnett here could not substitute for the required
consent and agreement to arbitrate, see Granite Rock, 561 U.S. at 301 n.8, 304 n.l 1; Nelson, 119
F.3d at 762, particularly where, as the trial court found, the ERA that Burnett signed did not'
mention arbitration and the terms of Little Book of Answers contradicted the ERA’s language
about hours, pay, and breaks as to what an employee was supposed to do concerning disputes
SeeP.E. Sys., LLCv. CPI Corp., 176 Wn.2d 198, 207, 289 P.3d 638 (2012) (contract formation
requires an objective manifestation of mutual assent of both parties and the terms assented to

12

No. 97429-2
Pagliacci’s asserts, based on Gaglidari v. Denny’s Restaurants, Inc., 117 Wn.2d
426, 815 P.2d 1362 (1991), that an employer can impose an arbitration agreement by
unilaterally including it in an employee handbook. But Gaglidari does not support that
notion. In Gaglidari, this court acknowledged that “[a]n employer may unilaterally
amend or revoke policies and procedures established in an employee handbook.” Id. at
434. “However, an employer’s unilateral change in policy will not be effective until
employees receive reasonable notice of the change.” Id. This court explained that this
“reasonable notice rule” is warranted “because it is unfair to place the burden of
discovering policy changes on the employee. While the employee is bound by unilateral
acts of the employer, it is incumbent upon the employer to inform employees of its
actions.” Id. at 435. Gaglidari did not address arbitration, it concerned alteration of the
at-will employment relationship based on the employer’s policy of progressive discipline
as stated in the employee handbook. That is, the case addressed the employer’s
obligations that were voluntarily undertaken concerning progressive discipline as
expressed in the handbook. That has nothing to do with arbitration. See Satomi Owners
Ass ’n, 167 Wn.2d at 810-11 (arbitration is a matter of contract, and a party cannot be
required to submit to arbitration any dispute that he has not agreed so to submit). As the
Court of Appeals noted, “Pagliacci cites no Washington authority holding that an
employer can foist an arbitration agreement on an employee simply by including an

must be sufficiently definite); id. at 209 (a valid contract requires the parties to objectively
manifest their mutual assent to all material terms of the agreement).
13

No. 97429-2

arbitration clause in an employee handbook that is provided to the employee.” Burnett, 9
Wn. App. 2d at 208.4
Procedural Unconscionabilitv
Burnett argues that even if he is deemed to have agreed to arbitration by virtue of
being given the company handbook, the arbitration agreement is both procedurally and
substantively unconscionable and, thus, unenforceable in any event.
Washington recognizes two types of unconscionability for invalidating arbitration
agreements, procedural and substantive. McKee, 164 Wn.2d at 396. Procedural
unconscionability applies to impropriety during the formation of the contract; substantive
unconscionability applies to cases where a term in the contract is alleged to be one-sided
or overly harsh. Nelson v. McGoldrick, 127 Wn.2d 124, 131, 896 P.2d 1258 (1995).
Either is sufficient to void the agreement. Hill, 179 Wn.2d at 55.

Amicus Washington State Association for Justice Foundation (WAJF) adds that Pagliacci’s
arbitration clause was likely also unenforceable because it constituted an illusory promise. See
Br. of Amicus WAJF at 14 n.5. This is so because in the ERA, Pagliacci expressly reserved the
right to unilaterally modify all terms in Little Book of Answers, stating, “We will on occasion
change the policies and procedures contained in this employee handbook.” CP at 58. Generally,
courts have refused to enforce arbitration clauses as illusory promises to arbitrate where the
agreement allows one party to unilaterally modify the arbitration agreement. See, e.g., Salazar v
Citadel Commons Corp., 2004-NMSC-013, f 11, 135 N.M. 447, 450-51, 90 P.3d 466, 469-70
(holding that where the employer “retained the authority to unilaterally modify both the
arbitration section of the Handbook and the annexed Agreement to Arbitrate,” the arbitration
agreement was “illusory and unenforceable”); Carey v. 24 Hour Fitness, USA, Inc., 669 F.3d
202, 205-06 (5th Cir. 2012) (where employer reserved the “‘right to revise, delete, and add to the
employee handbook,’” arbitration clause was an unenforceable illusory promise)- Canales v
Univ of Phoenix, Inc., 854 F. Supp. 2d 119, 124-25 (D. Me. 2012) (collecting cases so noting).
While we do not disagree with WAJF, we need not reach this issue to resolve this case. This
court need not decide every issue raised, but only those that are dispositive of the case. See
Cazzanigi v. Gen. Elec. Credit Corp., 132 Wn.2d 433, 435, 938 P.2d 819 (1997) (“Although
numerous issues are raised, we find that two issues are dispositive of Plaintiffs’ claims and
accordingly, do not reach the remaining issues.”).
14

No. 97429-2
To determine whether an agreement is procedurally unconscionable, we examine
the circumstances surrounding the transaction, including (1) the manner in which the
contract was entered, (2) whether Burnett had a reasonable opportunity to understand the
terms of the contract, and (3) whether the important terms were hidden in a maze of fine
print, to determine whether a party lacked a meaningful choice. See Nelson, 127 Wn.2d
at 131; Schroeder v. Fageol Motors, Inc., 86 Wn.2d 256, 260,

544 P.2d 20(1975);Zuver,

153 Wn.2d at 304.
A contract is “procedurally unconscionable” when a party with unequal bargaining
power lacks a meaningful opportunity to bargain, thus making the end result an adhesion
contract. Adler, 153 Wn.2d at 348. The fact that a contract is an adhesion contract is
relevant but not determinative. Zuver, 153 Wn.2d at 306-07. An adhesion contract is not
necessarily procedurally unconscionable. Adler, 153 Wn.2d at 348. The key inquiry is
whether the party lacked meaningful choice. Zuver, 153 Wn.2d at 305.
Here, the Court of Appeals held that the circumstances surrounding the formation
of the parties’ arbitration agreement were procedurally unconscionable.

Burnett, 9 Wn.

App. 2d at 202. The Court of Appeals relied on Mattingly v. Palmer Ridge Homes, LLC,
157 Wn. App. 376, 238 P.3d 505 (2010). See Burnett, 9 Wn. App. 2d at 203-05

. But that

case did not concern arbitration, it concerned a home buyer’s additional wairanty, which
Division Two of the Court of Appeals found procedurally unconscionable.

Mattingly,

157 Wn. App. at 392. Mattingly is distinguishable on the key point that the homebuyer
acknowledged the warranty, signed an application for it at closing, and expressly
acknowledged that he had read and understood it (even though he had not). In Mattingly,
15

No. 97429-2
the homebuyer overtly entered into the warranty contract. The problem in Mattingly was
that the homebuyer did not actually know the terms contained in the warranty, which he
had applied for and received, believing that it would provide additional protection when it
actually limited his remedies. Id. at 383. By contrast, as discussed above, Burnett had no
notice and was unaware of the existence of the MAP when he signed the ERA. While
there are some similarities in the cases, i.e., neither the homebuyer nor Burnett received
and read relevant documents before signing contracts, the key distinction is that the
homebuyer in Mattingly overtly embraced the warranty, while Burnett was unaware of
the arbitration provision in the handbook when he signed the ERA.
Division Two in Mattingly held that the “circumstances surrounding the .. .
warranty agreement’s formation” rendered the warranty procedurally unconscionable and
unenforceable. Id. at 392. The court noted that the homebuyer did not receive a copy of
the warranty booklet before closing and when he did receive the booklet (after moving
into the house), the warranty’s limiting provisions appeared on page 7 of the 32-page
booklet. Id. at 391-92.
Relying on Mattingly, the Court of Appeals here stated:
[A]s in Mattingly, the circumstances surrounding the formation of the
parties’ arbitration agreement are suspect. As in Mattingly, there is no
evidence in the record that Burnett had a reasonable opportunity to
understand the terms contained in the Little Book—and specifically the
mandatory arbitration policy—before he signed the ERA. Instead, the
record reflects that Burnett was not afforded an opportunity to review the
Little Book before signing the ERA: Burnett testified that he was told to
sign the ERA to begin work and instructed to read the Little Book at home.
Furthermore, like the warranty limitations in Mattingly, Pagliacci’s
mandatory arbitration policy is buried in a booklet: although it is written in
plain English, it appears on page 18 of the 23-page Little Book, in the same
16

No. 97429-2
font size and with the same formatting as surrounding sections. For these
reasons, we conclude that Burnett lacked meaningful choice in agreeing to
arbitrate and thus the circumstances surrounding the formation of the
parties ’ arbitration agreement were procedurally unconscionable.
Burnett, 9 Wn. App. 2d at 204-205 (emphasis added). Here, while some of the listed
facts appear to meet the procedural unconscionability circumstances noted above, such as
hidden terms and lack of reasonable opportunity to review terms, see Zuver, 152 Wn.2d
at 304, the material difference in the two cases is that in Burnett’s case he had no
knowledge or notice that Pagliacci’s MAP even existed when he signed the ERA. Thus,
he never agreed to arbitrate. In this circumstance, the fact that “Burnett was not afforded
an opportunity to review the Little Book before signing the ERA,” Burnett, 9 Wn. App.
2d at 204, speaks primarily to the issue of contract formation rather than to
unconscionability of an existing arbitration contract.
Nevertheless, even assuming a valid agreement was formed, the facts here show
that Burnett “lacked meaningful choice,” which is the key inquiry for finding procedural
unconscionability. Zuver, 153 Wn.2d at 305. As noted, the employment agreement that
Burnett signed did not mention arbitration, Pagliacci’s arbitration policy appeared on
page 18 of the 23-page handbook that Burnett received after he signed the employment
agreement, and the arbitration policy was not identified in the handbook’s table of
contents. Because essential terms were hidden and Burnett had no reasonable
opportunity to understand the arbitration policy before signing the employment contract,
the manner in which the contract was entered demonstrated that Burnett lacked a
meaningful choice regarding the arbitration policy. Because these facts satisfy the

17

No. 97429-2
criteria articulated in Zuver, see 153 Wn.2d at 304, we hold that even if an arbitration
agreement was indeed established, it was procedurally unconscionable and
unenforceable.
Substantive Unconscionabilitv
The Court of Appeals determined that “the effect of Pagliacci’s two-step
mandatory arbitration policy is ‘so one-sided and harsh that it is substantively
unconscionable.”’ Burnett, 9 Wn. App. 2d at 218 (quoting Zuver, 153 Wn.2d at 318).
We agree.
Substantive unconscionability exists when a provision in the contract is one-sided.
Adler, 153 Wn.2d at 344. In determining if a contractual provision is one-sided or overly
harsh, courts have considered whether the provision is shocking to the conscience,
monstrously harsh, and exceedingly calloused. Id. at 344-45; see Nelson, 127 Wn.2d at
131.
Here, Pagliacci’s handbook required employees to submit their claims to
arbitration. The handbook also provided that employees were required to first submit any
such claims to Pagliacci’s F.A.I.R. Policy before pursuing arbitration. F.A.I.R. Policy
required employees to first report the matter to a supervisor, and if that did not resolve
the matter, the “F.A.I.R. Administrator” would designate a person at Pagliacci to meet
with the employee. CP at 70. If the employee did not follow the F.A.I.R. procedure, the
employee “waive[d] any right to raise the claim in any court or other forum, including
arbitration.” Id. Compliance with the noted F.A.I.R. Policy procedures and limitations
“shall not be subject to tolling, equitable or otherwise.” Id. The Court of Appeals found
18

No. 97429-2
these procedures substantively unconscionable because they (1) operate as a complete bar
as to terminated employees because they have no way to report the matter to a supervisor,
(2) shorten the statute of limitations for any employee because the procedures do not toll
the statute of limitations (and the time for completing the procedures is completely within
the Pagliacci’s control), and (3) provide no exception to the requirement for supervisor
review where a supervisor is the person subjecting the employee to unfair treatment. See
Burnett, 9 Wn. App. 2d at 214-17. Because the F.A.I.R. Policy provided unfair
advantages to Pagliacci and because full compliance with F.A.I.R Policy procedures is a
prerequisite to arbitration, the Court of Appeals correctly held that the limitations
provision in the F.A.I.R. Policy renders the MAP substantively unconscionable. Id. at
217.
Pagliacci cites Zuver, 153 Wn.2d at 312, for the proposition that the F.A.I.R.
procedures cannot void the arbitration agreement “based on hypothetical outcomes that
did not occur.” See Suppl. Br. of Pet’r at 13, 16. But Pagliacci misconstrues Zuver.
There, the plaintiff brought a discrimination claim that entitled her to an award of fees if
she prevailed. The arbitration clause provided the prevailing party “may be entitled to
receive reasonable attorney fees.” Zuver, 153 Wn.2d at 310 (emphasis and internal
quotation marks omitted). This court held the attorney fee provision was not
substantively unconscionable because it would be speculative to assume the arbitrator
would ignore controlling law and fail to award the plaintiff fees if she prevailed in
arbitration. See id. at 312.

19

No. 97429-2
Here, there is nothing speculative about the effect of Pagliacci’s requirement that
its employees follow the F.A.I.R. Policy procedures prior to pursuing arbitration and that
the statute of limitations would not toll during the time that it takes to pursue the F.A.I.R.
procedures. F.A.I.R. provides that it is mandatory that Pagliacci’s employees follow the
F A.I.R. procedures, and failure to comply results in a waiver of the right to raise their
claims in any court or in arbitration.
Further, Pagliacci argues, “The only reasonable interpretation here is that the
F.A.I.R. Policy applies to current employees for whom they have a supervisor to report.”
Suppl. Br. of Pet’r at 16. But that contention is belied by the plain language of the
F.A.I.R Policy, which by its express terms applies to persons who believe they have been
“wrongfully terminated.” CP at 70.
Amicus Public Justice P.C. argues in support of Burnett’s view that by effectively
requiring Burnett to bring his claims in arbitration and not so limiting Pagliacci Pizza, the
MAP is excessively one-sided and thus unconscionable. Br. of Pub. Justice in Supp. of
Resp’t at 5. Amicus notes that this comports with the prevailing view of a majority of
jurisdictions, citing Taylor v. Butler, 142 S.W.3d 277, 286 and n.4 (Tenn. 2004), in which
the Tennessee Supreme Court identifies the “majority view” of jurisdictions to be that a
one-sided arbitration clause that allows the corporation’s claims to remain in court while
requiring the individual’s claims to go to arbitration is unconscionable. See also Dan
Ryan Builders, Inc. v. Nelson, 230 W. Va. 281, 290, 737 S.E.2d 550 (2012) (“In a
majority of jurisdictions, it is well-settled that a contract which requires the weaker party

20

No. 97429-2
to arbitrate any claims he or she may have, but permits the stronger party to seek redress
through the courts, may be found to be substantively unconscionable.”).
Pagliacci answers that Taylor is distinguishable because the arbitration clause in
that case contained express language preserving the drafter’s right to ‘“pursue recovery
.. . by state court action,”’ but no such express language preserving court action for
Pagliacci appears in its MAP. See Pet’r’s Resp. to Amicus Pub. Justice at 6 (emphasis
omitted) (quoting Taylor, 142 S.W.3d at 284). Nevertheless, the effect of the plain
language of the MAP achieves the same end, it requires Burnett to arbitrate but does not
so limit Pagliacci. The MAP language remains so one-sided as to be unconscionable. As
the California Supreme Court has explained, “Although parties are free to contract for
asymmetrical remedies and arbitration clauses of varying scope,... the doctrine of
unconscionability limits the extent to which a stronger party may, through a contract of
adhesion, impose the arbitration forum on the weaker party without accepting that forum
for itself.” Armendariz v. Found. Health Psychcare Servs., Inc., 24 Cal. 4th 83, 118, 6
P.3d 669, 99 Cal. Rptr. 2d 745 (2000). “[I]n the context of an arbitration agreement
imposed by the employer on the employee, such a one-sided term is unconscionable.” Id.
Severence
Pagliacci argues that if its arbitration agreement provisions are deemed
substantively unconscionable, the appropriate remedy is severance. See Suppl. Br. of
Pet’r at 14-15. However, where unconscionable provisions pervade an arbitration
agreement, the entire agreement should be invalidated. See Gandee, 176 Wn.2d at 60709; McKee, 164 Wn.2d at 402-03. Here, Pagliacci’s F.A.I.R. Policy procedures are
21

No. 97429-2
«

>• l

i

A

1

intertwined with the arbitration provision. As noted, Pagliacci’s employees are not
.1

.

V

'

■ '

. ... ■ ■ V.

...

1

,

permitted to pursue arbitration until proceeding through the F.A.I.R. .procedures, and the
1

'

'"C O ^

iV < '

.

]■ ,

f .'

statute of limitations continues to run while the employees comply with everytstep and
» *

I

.

■

t

■

.-

procedure. “Permitting severability ... in the face of .a contract that is permeated with
i-

‘

'

.it

unconscionability only encourages those who draft contracts of adhesion to overreach. If
'• v
>■-lA V i '• .V \ . * v ,•? p!.
C, \ ., e :i< ini' • ■
the worst that can happen is the offensive provisions are severed and the balance
'I

" •

>

,

, 1“

{ tV-

.

’ i

jf .n •

1 «

'

ii !

enforced, the dominant party has nothing to lose by inserting one-sided, unconscionable
• *•

»

i

.<!«,.

*■. .. ■■ t ■ •

v1«• v' r.i

.

provisions.” McKee, 164 Wn.2d at 403. In Zuver, this court severed the unconscionable
.v \
«!
\\ !<
i....................................................................
provisions because the remainder of the agreement could be preserved and because the
t<‘

■.'■ir* ■ a

/

i

parties had “explicitly assented to a severability provision in their agreement and thus
‘

■

r

’

'

'■

.. •/

;t

v

■

intended that courts sever any unconscionable provisions.” 153 Wn.2d at 320 n.20.
' ■r,v i ■
.i- v t‘...
V
VI/ .
Here, no severance clause is included in the ERA, the MAP, or the F.A.I.R. Policy.
v ’ i
•v •
v -r. . ;■ o ..n
* Cf *F *
Accordingly, we hold that severance is not appropriate here, and we find the arbitration
■i

I

, i

i

}

1

a

?.

v. i

clause invalid.
<

4**

J

'■

t

'/

A

The Court of Appeals Did Not Misapply Zuver
» 1
i •
uv, . 1 I
V
r
IV ^
Burnett has raised a contingent issue, asserting that the Court of Appeals misread
A
" ■’ '
»’
..U •
‘
*
- * • W
.V. -H '{t
t
and misapplied Zuver. See Resp’t’s Resp. to Pet. for Review at 15-17. Here, the Court of
1

t

t

i

T 'r

,

t

♦' '

k A

Appeals stated, “[T]he Zuver court’s analysis demonstrates that arbitration agreements
*

4

A -

are not substantively unconscionable merely because they are not mutual. Therefore, we
i.

u i< , :

I

(

'V .

I1

•t

reject Burnett’s argument that Pagliacci’s mandatory arbitration policy is substantively
t
i
'K
unconscionable merely because it requires Burnett, but not Pagliacci, to arbitrate certain
i

claims.” Burnett, 9 Wn. App. 2d at 214. The Court of Appeals explained,
22

No. 97429-2
In a footnote, this court further noted, “[W]e are not concerned here with whether
the parties have mirror obligations under the agreement, but rather whether the effect of
the provision is so ‘one-sided’ as to render it patently ‘overly harsh’ in this case.” Id. at
317 n. 16 (citing Schroeder, 86 Wn.2d at 260). Accordingly, the core of Zuver's holding
as identified above is that a provision is substantively unconscionable where its effect is
so one-sided as to render it overly harsh. The Court of Appeals here properly applied that
standard. See Burnett, 9 Wn. App. 2d at 212-14.
In his supplemental brief, Burnett urges this court to clearly “adopt the California
Supreme Court’s rule that ‘an agreement requiring arbitration only for the claims of the
weaker party but a choice of forums for the claims of the stronger party’ is substantively
unconscionable.” Resp’t’s Suppl. Br. at 10-20 (quoting Armendariz, 24 Cal. 4th at 119).
While this court cited Armendariz with approval in Zuver, it also made clear in its
concluding footnote in the same section that “future litigants must show, as was done in
this circumstance, that the disputed provision is so ‘one-sided’ and ‘overly harsh’ as to
render it unconscionable.” Zuver, 153 Wn.2d at 319 n. 18.
As discussed above, on this issue the Court of Appeals properly applied Zuver.
Burnett does not effectively argue that this court should alter or expand the rules stated in
that case.
CONCLUSION
We hold that the MAP at issue in this case is unenforceable because no arbitration
agreement was formed when the employee signed the employment agreement when he
had no notice of the arbitration provision contained in the employee handbook. We also
24

No. 97429-2
hold that in light of the noted circumstances, even if an arbitration contract exists, it is
procedurally unconscionable and unenforceable. We also hold that the same arbitration
provision is substantively unconscionable because its one-sided terms and limitation
provisions would bar any claim by the terminated employee here, an overly harsh result.
Accordingly, we affirm the trial court’s order denying the employer’s motion to compel
arbitration and remand for further proceedings.

WE CONCUR:

25

